<html>
<title> - IMPROVING PROGRAMS DESIGNED TO PROTECT AT-RISK YOUTH</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                      IMPROVING PROGRAMS DESIGNED
                        TO PROTECT AT-RISK YOUTH

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2011

                               __________

                           Serial No. 112-HR4

                               __________

         Printed for the use of the Committee on Ways and Means




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
70-886                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                      COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                         GEOFF DAVIS, Kentucky

ADRIAN SMITH, Nebraska               LLOYD DOGGETT, Texas
ERIK PAULSEN, Minnesota              JIM MCDERMOTT, Washington
RICK BERG, North Dakota              JOHN LEWIS, Georgia
TOM PRICE, Georgia                   JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee
CHARLES W. BOUSTANY, JR., Louisiana

                       Jon Traub, Staff Director

                  Janice Mays, Minority Staff Director












                            C O N T E N T S

                               __________
                                                                   Page

Advisory of June 16, 2011, announcing the hearing................     2

                               WITNESSES

PANEL 1:

  The Honorable Dennis R. ``Denny'' Rehberg, a Representative 
    from the State of Montana....................................     6
  The Honorable Karen R. Bass, a Representative from the State of 
    California...................................................     8

                                 ______

PANEL 2:

  The Honorable Bryan Samuels, Commissioner, Administration on 
    Children, Youth and Families, Administration for Children and 
    Families, U.S. Department of Health and Human Services.......    18

PANEL 3:

  Patricia R. Wilson, Commissioner, Department for Community 
    Based Services, Kentucky Cabinet for Health and Family 
    Services.....................................................    61
  Lelia Baum Hopper, Director, Court Improvement Program, Supreme 
    Court of Virginia............................................    69
  Tracy Wareing, Executive Director, American Public Human 
    Services Association.........................................    79
  John Sciamanna, Director, Policy and Government Affairs, Child 
    Welfare, American Humane Society.............................    88
  Steve Yager, Deputy Director, Children's Services 
    Administration, Michigan Department of Human Services........   101

                       SUBMISSIONS FOR THE RECORD

Adoptions Together...............................................   124
Child Welfare League of America..................................   131
Conference of Chief Justices, Conferences of State Court 
  Administrators.................................................   140
Cook Inlet Tribal Council........................................   148
Dave Thomas Foundation for Adoption..............................   151
Embrace Waiting Children, Inc....................................   157
Evan B. Donaldson Adoption Institute.............................   158
Family Design Resource, Inc......................................   163
Zero to Three, National Center for Infants, Toddlers, and 
  Families.......................................................   166
Generations United...............................................   175
National Association of Social Workers...........................   179
National Committee of Grandparents for Children's Rights.........   184
National Family Preservation Network.............................   194
North American Council on Adoptable Children.....................   197
Northwest Adoption Exchange and Oregon Post Adoption Resources 
  Center.........................................................   201
NYS Citizens' Coalition for Children.............................   205
Research on Vulnerable Families..................................   207
Sacred Authority.................................................   210
Stephanie Trevitz................................................   212
The Adoption Exchange............................................   216
The National Mentoring Partnership...............................   220
Voice for Adoption...............................................   223

 
                     IMPROVING PROGRAMS DESIGNED TO
                         PROTECT AT-RISK YOUTH

                              ----------                              


                        THURSDAY, JUNE 16, 2011

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 9:02 a.m. in 
Room B-318, Rayburn House Office Building, the Honorable Geoff 
Davis [Chairman of the Subcommittee] presiding.
    [The advisory of the hearing follows:]

HEARING ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

  Chairman Davis Announces Hearing on Improving Programs Designed to 
                         Protect At-Risk Youth

Thursday, June 16, 2011

    Congressman Geoff Davis (R-KY), Chairman of the Subcommittee on 
Human Resources, Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing on improving programs designed to 
protect youth at risk of abuse and neglect. The hearing will take place 
on Thursday, June 16, 2011, in Room B-318 of the Rayburn House Office 
Building, beginning at 9:00 A.M.
      
    In view of the limited time available to hear from witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include a representative from the Administration for 
Children and Families, the Federal agency with oversight over child 
welfare services programs, along with other experts on these issues. 
However, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The authorizations for two of the child welfare programs under the 
Subcommittee's jurisdiction (the Stephanie Tubbs Jones Child Welfare 
Services program and the Promoting Safe and Stable Families program) 
expire at the end of fiscal year 2011. The last reauthorization of 
these programs, the Child and Family Services Improvement Act of 2006 
(P.L. 109-288), made significant changes such as requiring that foster 
children be visited at least once per month, ensuring that states 
consult with medical providers in assessing the health and wellbeing of 
children in care, and helping States better address caretaker substance 
abuse issues. This law also extended the authorization of the Mentoring 
Children of Prisoners program as well as the Court Improvement Program.
    The 2006 legislation also provided funds to support monthly 
caseworker visits and to improve outcomes for children affected by a 
parent's or caretaker's substance abuse. In addition to these changes, 
the law also increased accountability by requiring States to report 
expenditure data for the first time and by limiting the amount of child 
welfare services program funds States could spend on administration.
    In announcing the hearing, Chairman Davis stated, ``This hearing 
provides an important opportunity to review how key aspects of our 
nation's child welfare system are working. These two programs are 
designed to play a significant role in protecting children from abuse 
and neglect. We need to review recent changes to see if they are 
working to improve the lives of kids in foster care and those at risk 
of entering care. We also need to evaluate these programs to determine 
whether other changes are needed to ensure children are protected from 
abuse and neglect.''
      

FOCUS OF THE HEARING:

      
    The purpose of this hearing is to review recent changes to the 
Stephanie Tubbs Jones Child Welfare Services program and the Promoting 
Safe and Stable Families program, as well as consider whether 
additional changes should be made in legislation to reauthorize these 
programs.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. Attach your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Thursday, June 30, 2011. Finally, please 
note that due to the change in House mail policy, the U.S. Capitol 
Police will refuse sealed-package deliveries to all House Office 
Buildings. For questions, or if you encounter technical problems, 
please call (202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov/.

                                 <F-dash>

    Chairman DAVIS. Good morning. Before we begin the opening 
statement, I would like to note that our line-up on the 
Republican side has changed a bit, due to Mr. Heller's move 
over to the United States Senate, and his departure from the 
People's House. Today I would like to welcome Tom Reed from New 
York, both to the subcommittee and to the committee, for his 
first hearing. Thanks for joining us; we look forward to your 
perspective. He replaces Mr. Smith of Nebraska, who now becomes 
a distinguished alumnus of our subcommittee.
    In today's hearing we are going to review several programs 
under our jurisdiction that are designed to help ensure the 
safety and well-being of children at risk of abuse and neglect. 
The majority of Federal child welfare spending is used to 
reimburse states for supporting and overseeing children while 
they are in foster care.
    However, the two programs we will focus on today, the Child 
Welfare Services program and the Promoting Safe and Stable 
Families program, are designed to prevent the need for foster 
care in the first place, as well as to help foster children 
return home safely or be placed with adoptive parents as soon 
as possible.
    These two programs were last authorized in 2006, and both 
expire at the end of the fiscal year. The 2006 reauthorization 
made significant changes, such as requiring that foster 
children be visited at least once per month, ensuring that 
states consult with medical providers in assessing the health 
of foster youth, and helping states better address caretaker 
substance abuse issues.
    The purpose of our hearing today is to review the effects 
of those changes, and to consider other changes that may be 
needed to promote the well-being of children at risk of abuse 
and neglect. While we will primarily focus on these two 
programs, we should also draw attention to the patchwork way in 
which child welfare programs currently operate.
    In our prior hearing on the program duplication, I noted 
that this subcommittee has jurisdiction over nine different 
child welfare programs, each with different purposes, spending 
requirements, and funding mechanisms. We need to ensure that 
these programs help and do not hinder states' efforts to serve 
families in need. We also must make sure we understand how this 
taxpayer money is used, and whether it is achieving its 
intended purpose.
    Amazingly, until 2006, there was no requirement that states 
report how they actually spend child welfare service program 
funds. In other words, for that program's first 70 years, the 
public had no way of knowing how this money was spent, and this 
is not a way to run a government.
    I look forward to hearing from our witnesses this morning 
on what we have learned from the recent changes to these 
programs, as well as what we can do to ensure more children 
remain safely in their own homes. Joining us today will be a 
mix of experts from Congress, the Administration, states, and 
outside groups. We look forward to all of their testimony.
    And I particularly want to single out one group that is not 
represented here today, possibly in the room, but one that my 
wife and I have long affiliation with, and that is CASA. I have 
done a lot of work through the years--really, over the last 25 
years--with families on the edge, and particularly our years of 
affiliation with CASA have been a great blessing. And I 
appreciate not only CASA's contribution, but all of the 
advocates, and especially the front-line volunteers and folks 
that are working directly with children, with the families, 
trying to bring stability and order.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point. And now I would like to recognize our 
distinguished Ranking Member from Texas, my friend, Mr. 
Doggett.
    Mr. DOGGETT. Well, thank you, Mr. Chairman. We share a 
similar interest in CASA. I have worked with several of the 
groups in the central Texas area, and they do outstanding work 
with able volunteers, as well as some of the other groups that 
are represented here this morning. And I am hopeful that we 
share not only that interest, but an interest in seeing that we 
put every taxpayer dollar to the most effective and efficient 
use possible to provide some of our most vulnerable children 
the services that they need.
    As you have noted, the funding for the Child Welfare 
Services program and the Promoting Safe and Stable Families 
program will expire--the authorization for it--at the end of 
September, unless we take action to renew them. These programs 
have been renewed, and have enjoyed bipartisan support in the 
past. And I hope that we can work together to extend and 
improve these services.
    The Child Welfare Services and the Promoting Safe and 
Stable Families initiatives provide about $700 million to the 
states this year for early intervention and family services 
designed to help our most at-risk families. These funds are a 
critical part of the efforts to ensure that children are raised 
safely in their homes. And when that is not possible, to find a 
permanent home with a relative or an adoptive family.
    In my home state of Texas, the Promoting Safe and Stable 
Families program has provided funds to help children in my home 
town in Travis County that are affected by substance abuse in 
the home. This program has enabled our county to develop a 
flexible, comprehensive continuum of services that is aimed at 
promoting recovery, and ensuring that children have a safe home 
free of drug addiction and abuse.
    We know that an investment in front-end services not only 
saves lives, but also can reduce the long-term cost of removing 
a child from a family home and placing them in foster care. We 
have seen in Texas how mindless budget cutting can hurt these 
same children. In Texas there was a proposal in the State 
Legislature that would have the effect of cutting services to 
prevent child abuse and neglect by almost half in the current 
legislature. And legislatures across the country, whether 
through the pressures of budgets or indifference, are faced 
with similar kind of cuts. That is why what we do here is 
especially important this year.
    I am troubled that the original Republican budget 
resolution considered earlier this year in the House would have 
cut the Social Services Block Grant program by $1.7 billion to 
the states, eliminating grants that would jeopardize protective 
services for almost 2 million at-risk children.
    Mr. Chairman, our committee does have a history of working 
together on these issues, and I look forward to cooperating and 
working with you and other Members of the Committee. I am 
pleased we have a couple of colleagues here to offer us 
insight, along with the experts from the field on this today. 
And I am sure it will be a productive hearing. Thank you.
    Chairman DAVIS. Thank you very much, Mr. Doggett. Before we 
move on to our testimony, I would like to remind our witnesses 
on both panels that oral statements are going to be limited to 
five minutes. However, without objection, all of the written 
testimony will be made part of the permanent record.
    On our first panel we will be hearing from two of our 
distinguished colleagues. First, the Honorable Denny Rehberg, 
my friend from Montana since I have been in the Congress, and 
the Honorable Karen Bass, who is joining us from California, a 
long-time advocate on these issues.
    Mr. Rehberg, please proceed with your testimony.

   STATEMENT OF THE HONORABLE DENNIS R. ``DENNY'' REHBERG, A 
      REPRESENTATIVE IN CONGRESS FROM THE STATE OF MONTANA

    Mr. REHBERG. Thank you, Mr. Chairman. And I appear today 
not only on my own behalf, and as the representative of the 
State of Montana, as the chairman of the appropriations 
subcommittee, called labor, health and human services, and 
education.
    I have got a long history of interest in these issues, and 
have been in many of your states, both as a Shriner and as a 
national vice president of the Montana and national Muscular 
Dystrophy Association, as well as having co-founded and co-
chaired the Baby Caucus with Rosa DeLauro, for the specific 
purposes of looking for areas of interest to keep families 
together, and the struggles that are placed in their way for 
doing that.
    I also want to thank you for the opportunity to talk about 
an issue that is of great importance to me in my home state of 
Montana, that of addressing the methamphetamine crisis, and the 
importance of family-based drug prevention treatment.
    Much of my activity in Montana meth is as a result of an 
individual by the name of Tom Sibel. He had owned Sibel 
Systems, eventually sold to Oracle, and he personally has put, 
at the last count that I was aware of, in the public-private 
partnership $60 million of his own money to create meth 
projects in states like Arizona, Colorado, Georgia, Hawaii, 
Idaho, Illinois, Montana, and Wyoming. And those of you who 
represent those states would recognize the Georgia meth, 
Montana meth, Arizona meth project.
    All rural areas of our nation have struggled with the 
devastation caused by rampant meth use, and Montana has been no 
exception. I have long supported the efforts of organizations 
that are in the forefront of drug prevention and treatment 
efforts in our states. In Montana, we do have the Montana meth 
project, an organization that does outstanding work conducting 
research and running statewide multi-media public awareness 
campaigns aimed at significantly reducing first-time meth use.
    The meth project's campaign of preventing kids from using 
meth, not even once, has led to a dramatic shift in the 
perception of meth use, and led to a 33 percent decrease in 
teen use of meth between 2007 and 2009. The meth project's 
campaigns have also led to more frequent parent-child 
communications about the dangers of meth, an important 
component of educating kids on the dangers of this addictive 
drug from a young age.
    While I think we have come a long way in improving efforts 
to combat drug use in the first place, I think we can still 
improve in the way we provide treatment for those who are 
struggling with substance abuse issues. I strongly advocated 
for family-based meth treatment, an approach which dramatically 
increases the effectiveness of long-term recovery, employment, 
and educational enrollment. This kind of treatment yields 
consistently positive outcomes in child well-being, family 
stability, and lower recidivism rates. Family-based treatment 
centers provide essential needs for the entire family, 
including children, rather than just the parent.
    I appreciate the fact that 2006 reauthorization of the 
child welfare programs under this committee's jurisdiction 
provided dedicated funds for states to work with parents and 
caregivers with meth and other substance abuse issues. And I am 
especially thankful that two of those grants went to Montana 
organizations.
    The bottom line? Families provide the best support systems, 
so making family the center of addiction treatment whenever 
possible just makes common sense.
    The purpose of today's hearing is to evaluate how key 
pieces of our nation's child welfare system are working. I hope 
that, as you develop and delve into the specific programs under 
your jurisdiction, like the Promoting Safe and Stable Families 
program, that are designed to address child safety and 
stability of families face substance abuse uses, you will focus 
on opportunities for family-based prevention and treatment 
whenever possible. My hope is that one day I will be able to 
report that meth addiction is no longer an issue in rural 
America.
    Until then, I thank the committee for the opportunity to 
share my perspective, and for--and its time on this incredibly 
important issue for families and communities elsewhere. Thank 
you, Mr. Chairman.
    Chairman DAVIS. Thank you, Mr. Rehberg, for your testimony 
on this critical issue, also a big issue in the Commonwealth of 
Kentucky right now.
    Ms. BASS. You could give your testimony.
    [The prepared statement of Mr. Rehberg follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 STATEMENT OF THE HONORABLE KAREN R. BASS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. BASS. Yes. Good morning, Chairman Davis and Ranking 
Member Doggett. Thank you for the opportunity to testify here 
before the committee today. I appreciated hearing your 
testimony about the meth problem.
    Actually, I became involved in the child welfare issue 
about 20 years ago. I started an organization in Los Angeles 
that was addressing the crack cocaine crisis which, if we look 
at both of those drug epidemics, it was certainly when we had a 
spike in child welfare cases. And, frankly, it is one of the 
key policy areas that I hope to work on while I am in Congress.
    In California, we have made enormous strides with reforming 
our child welfare system. In 1999, there were 140,000 children 
and youth that were removed from homes in California and placed 
in foster care. Today they are 57,000. In Los Angeles County 
there were 55,000 children removed from their homes, and today 
there are 15,000.
    But the fact remains that there is certainly still enormous 
work to do to improve our system to help at-risk children and 
families prevent entry into foster care. By providing help to 
families to prevent the spiral into abuse and neglect, we would 
avoid the substantial cost of foster care, avoiding the trauma 
of removal, and help families stay together.
    To the contrary, the current child welfare system, the 
primary focus is on families that have already been identified 
with child abuse or neglect issues. This ends up with families 
being separated, children in foster care, costly efforts at 
reunification, and a system that has more failures than 
successes. The fact that title IV-E funding cannot be used for 
prevention or post-reunification services has created a 
significant challenge to achieve better safety outcomes and 
finding permanent homes for children.
    However, in jurisdictions like Los Angeles County, some of 
these challenges have been mitigated because of the 
availability of Title IV-E flexibility. Funding waivers allows 
the county to implement prevention strategies outside of 
funding constraints and dollars chiefly tied to out-of-home 
removal.
    Given the limited number of IV-E waivers, the Promoting 
Safe and Stable Families, PSSF, funding is essentially the only 
resource currently available that can finance support services 
to families. These funds can be used to provide a continuum of 
services that support families that have entered the child 
welfare system and are working towards reunification, as well 
as expanding efforts to prevent families from entering the 
system, or diverting them when they have been identified. But 
we know that PSSF funding is not sufficient to provide the 
amount of services necessary to truly affect change in existing 
structure.
    I wanted to mention a couple of promising practices that 
the committee, I am sure, is aware of, but I think should be 
highlighted at this point in time. We know that there is many 
examples of programs that have been successful, and certainly 
my colleague mentioned a couple.
    One promising practice is the differential response 
framework, which offers a broad set of strategies for working 
with families at the first signs of trouble, based on their 
level of need or risk that is identified. Differential response 
is an evidence-based approach to prevent child abuse and 
neglect by ensuring child safety through expanding the ability 
of child welfare agencies to respond to reports of child 
maltreatment.
    Because of the effectiveness of the model, in California 
there is an effort to expand this response to families that are 
at risk of being involved in the system because of issues such 
as substance abuse, mental health, and domestic violence.
    Another one is up-front assessments. In 2004 Los Angeles 
County Department of Children and Family Services implemented a 
pilot program to address the high number of children in foster 
care. Point of engagement is a process that attempts to engage 
the family as soon as possible after the referral to the 
department in order to assess the family and provide services 
that allow the family to avoid child detainment all together.
    I want to give an example. There is a program in Los 
Angeles County called Shields for Families, and this is a 
program that was started at the height of the crack cocaine 
epidemic. I sat through one of the point of engagement 
responses that was done where the family members sat around and 
identified what the weaknesses, what the strengths were, and 
how to intervene in this situation. And I think it is an 
example of where they have been able to reduce the number of 
children that are in the system, all together.
    In conclusion, I would ask my colleagues to consider, of 
course, that prevention--an ounce of prevention, we all know, 
is certainly worth a pound of cure. As we work to reauthorize 
the Promoting Safe and Stable Families Act, these tried and 
proven community strategies are not only effective, but cost 
effective. And I encourage you to use prevention and early 
intervention models such as the ones adopted in LA County and 
Shields to inform your decision-making.
    Thank you for the opportunity to give testimony today.
    Chairman DAVIS. Thank you very much. I would like to thank 
both Mr. Rehberg and Ms. Bass for investing time to come in and 
share their insights. Does anyone have any questions from our 
colleagues?
    Mr. MCDERMOTT. Mr. Chairman, I want to commend you on 
getting the appropriator here, so that he can get an early buy-
in on our authorization.
    [Laughter.]
    Chairman DAVIS. I appreciate the gentleman's perspective. 
It begs the fellowship----
    Mr. REHBERG. It----
    Chairman DAVIS [continuing]. Of the Appropriations and Ways 
and Means Committee, since the ratifying of the Constitution.
    Mr. REHBERG. Mr. Chairman, in response, I knew I was 
probably being set up by being here, so----
    [Laughter.]
    Mr. REHBERG [continuing]. Duly noted.
    Chairman DAVIS. Great. Thank you both very much. And that 
concludes our first panel.
    [Pause.]
    Chairman DAVIS. For our second panel, we will be hearing 
from the Honorable Bryan Samuels, commissioner of the 
administration on Children, Youth, and Families, Administration 
for Children and Families, from the United States Department of 
Health and Human Services.
    Mr. Samuels, please proceed with your testimony.
    [The prepared statement of Ms. Bass follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  STATEMENT OF BRYAN SAMUELS, COMMISSIONER, ADMINISTRATION ON 
 CHILDREN, YOUTH AND FAMILIES, ADMINISTRATION FOR CHILDREN AND 
     FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. SAMUELS. Great, thank you. Good morning, everyone. 
Chairman Davis, Ranking Member Doggett, Members of the 
Subcommittee, I appreciate the opportunity to speak to you 
today.
    Title IV-B is an essential program in the child welfare 
system. The work of Congress over the last 14 years has made a 
huge difference in the lives of children. Today there are 25 
percent fewer children in foster care, 14.5 percent less are 
entering care, and 7.5 percent more children are exiting care. 
And over the last 14 years we have seen an increase of 57 
percent in the number of adoptions achieved through foster 
care.
    I was the child welfare director in the State of Illinois 
from 2003 to 2007. The children of Illinois benefitted greatly 
from the reforms that Congress made. Today, Illinois has 65 
percent fewer children in out-of-home care than they did just 
14 years ago. However, my state struggled to meet the social 
and emotional needs of children, both in out-of-home care and 
in in-home care.
    In order for us to meet the needs of children in the foster 
care system, we need a strategy that is more trauma-informed 
and developmentally focused. In my experience, the four 
categories of Safe and Stable Families are the right ones. 
Children and families are served well by family preservation, 
family support, reunification, and adoption.
    I have seen the value of consistent case worker visitation, 
particularly the value it has for ensuring safety. In 2010 
nearly 75 percent of children were visited by their case worker 
each month. We expect these improvements to continue, and we 
will monitor them through the child and family services review.
    The Federal investment in meth also was a critical area of 
focus as the earlier panel discussed. We have seen declines in 
meth, overall, nationally. In Illinois we had a great fear that 
meth would be the crack cocaine epidemic for the 1990s. I am 
glad to report that, during my tenure, that did not occur, and 
that the number of children entering foster care because of 
meth declined. That said, not every community has benefitted 
from a reduction in meth use.
    More importantly, a recent study of children reared in 
homes where meth was used showed that they had substantially 
higher rates of post traumatic stress disorder (PTSD), and were 
exposed to multiple experiences of trauma and violence. Given 
the impact that trauma has on children and their development, 
we recommend, through the reauthorization of title IV-B, that 
you focus resources on improving the social and emotional well-
being of children.
    In Illinois, 25 percent of children entering care had an 
elevated level of traumatic stress that warranted professional 
intervention. Child welfare research clearly shows that 
focusing on trauma could have a significant impact on the long-
term well-being of children. Children who are exposed to trauma 
have learning and language difficulties, and they do poorer in 
school. Trauma creates disturbed attachment, aggressive 
behavior, loss of regulation in areas of sleep, food, and self-
care, feelings of self-hate, and chronic ineffectiveness.
    The data for older children in foster care have a diagnosis 
of mental illness shows that 14 percent of them are diagnosed 
with PTSD, 20 percent with attention deficit hyperactivity 
disorder (ADHD), 27 percent with major depression, and 47 
percent with conduct disorder or oppositional defiance at some 
point in their life.
    Moreover, children who are diagnosed with a mental illness 
are prescribed psychotropic medications at substantially higher 
rates than the general public. Child welfare directors are 
gravely concerned about this issue. There is an emerging 
consensus that non-medical-based interventions, such as 
cognitive behavior therapy, behavioral management, and family 
skills training are needed, sometimes in addition to 
psychotropic medications.
    As a child welfare director, meeting the social and 
emotional needs of children in foster care was my biggest 
challenge. Today I believe that that is still the biggest 
challenge across the country in child welfare. I urge the 
committee to take into consideration the social and emotional 
needs of children as you make your decisions, going forward. 
Thank you.
    [The prepared statement of Mr. Samuels follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. Thank you very much, Mr. Samuels. Now we 
will turn to questions. First, I would like to ask you a 
question related to streamlining administrative requirements.
    In April 2011, your agency announced it was reviewing the 
Child and Family Service Review process, which is how states 
are held accountable for the operation of their child welfare 
programs, including the two programs we are focusing on today. 
This announcement noted that you would consult with various 
stakeholders, consider changes to make sure that the reviews 
make sense, and really help states to make kids safe.
    Several states we have spoken with have told us--and I 
think our expert panel later this morning will address this--
that the many different child welfare reviews, audits, and 
plans have become a very large bureaucratic burden on the 
states. Now, your own testimony on page 24 mentions your goal 
to ``reduce costly and unnecessary administrative 
requirements,'' and hopefully integrating and streamlining the 
process to get same critical data.
    What is your agency doing to make sure that Federal 
oversight is useful, and that it holds states accountable for 
things we care about, and that it doesn't divert state 
resources from helping children at risk of abuse and neglect?
    In addition, what else is the Agency doing to streamline 
the way child welfare programs are managed? And I was wondering 
if you can consolidate some of the many audits and other 
administrative requirements.
    Mr. SAMUELS. I will start with the child and family service 
review (CFSR). As you know, that is a regulatory process, by 
which we monitor the overall activities of child welfare 
systems across the country. We are in the middle of soliciting 
comment on that review process.
    Without violating the basic communications around the 
regulatory process, I can share that we are focused on three 
areas in looking at how to improve the child and family service 
review.
    The first is around the methodology. It is both cumbersome 
and at times inappropriately used. We are trying to make sure 
that the strategies of reviewing data, reviewing case files, 
and reviewing the performance of states, are methodologically 
sound.
    Second, we are concerned that the CFSR focuses on too many 
issues. As a result, state agencies are not clear about the 
most important issues. We would hope to reduce the focal points 
for the CFSR so that states are comfortable in being held 
accountable, and do the work required.
    And third, we think it is important to be accountable. 
Sanctions are one way of encouraging accountability. We think 
there are probably others, and we are actively reviewing all 
possible examples of oversight that move beyond just 
sanctioning states.
    We think by doing those three things, and doing those in 
the context of very active public involvement, we can create a 
system of review that is refined, targeted, and holds states 
appropriately accountable for their obligation under Federal 
law.
    Chairman DAVIS. I appreciate you sharing that. We will look 
forward to working with you more on that. One concern that I 
have, having seen both in health care and a number of other 
issues related to this, that every hour filling out paperwork 
or redundant reports by front-line personnel is one less hour 
they are actually spending doing their job, and it has a rather 
constricting effect on capacity for service delivery.
    Are there things that Congress can do to limit this 
fragmentation, and the administrative complexity, while making 
sure states achieve the performance goals that are laid out for 
them by the Agency?
    Mr. SAMUELS. I think there are a couple of things that 
could be done. First, I think there is great value in 
accountability. As you know, part of the President's proposal 
for 2012 was an increase of $250 million, specifically 
targeting improving the overall performance of states and, 
secondly, making investments in three specific areas. I am 
going to focus on the accountability issue.
    Under the proposal, we would elevate the expectation around 
performance, using a set of factors, outcome and quality 
measures, that states would be held accountable for on an 
annual basis.
    As you know, the child and family service review occurs on 
a three-year cycle, with about two years in between one round 
and the next. So, in terms of accountability, the child and 
family service review occurs in states once every five years. 
We think that should be elevated. The measures ought to be 
reviewed on a more regular basis. Our proposal would be to do a 
targeted review of states on an annual basis, and then use the 
CFSR to really drill down on the limited number of outcomes 
where states aren't performing well.
    We think continued quality improvement is absolutely 
essential, and we that it should be an annual, and not every 
five years.
    Chairman DAVIS. Okay, thank you. Mr. Doggett?
    Mr. DOGGETT. Thank you very much. Thank you for your 
testimony and your important work.
    There is something of a tension between our desire to give 
maximum flexibility for innovation and creativity and adapting 
these services, and our need to get accountability and ensure 
that these monies are being spent in the way that the Federal 
law intends. And I don't think--I know this is true in my 
state--we can always assume that, left without any 
accountability, that the state will get the job done correctly 
and in the most effective way, any more than we would assume we 
can do without accountability in other areas.
    Let me focus in on promoting safe and stable families, and 
the Administration's proposal to incorporate an incentive-based 
structure there to address the social, emotion, and health-care 
needs of children. Why is it necessary to create a separate 
model to address these issues?
    Mr. SAMUELS. When you look at the current use of title IV-
B, both subpart I and subpart II, there is a limited amount of 
funding that actually goes into service interventions that 
specifically address the social and emotional needs of children 
in foster care.
    Again, I think it is important to recognize that 
maltreatment has a significant impact on a child's ability to 
function. In many instances, the impact of maltreatment doesn't 
rise to the level of a mental health diagnosis. Today, if you 
don't have a mental health diagnosis, states have a limited 
pool of funds to be able to address your needs.
    Trauma is a great example. Traumatic stress in a child has 
really significant impact. Child trauma is not, in and of 
itself, a diagnosis. Therefore, most children who would be 
served in a strategy to address their trauma would have to be 
served through funding other than Medicaid. It is our belief 
that there are insufficient funds to drive quality of service 
improvements needed to achieve good outcomes.
    I gave you the example of what we did in the state of 
Illinois, when I was a child welfare director. I was concerned 
about the developmental issues that children had in foster 
care, and their trauma. So we introduced an integrated 
assessment on the front end of every child within 45 days of 
entering care. It was a comprehensive review. We were able to 
know, from the very beginning, what they needed.
    In addition, we trained our case workers and our foster 
parents to recognize signs of trauma, and to address them. And 
we expanded three evidence-based strategies across all age 
groups, so that we could address those needs. I can tell you 6 
years ago that cost me more than $30 million.
    Mr. DOGGETT. You used somewhat clinical terms. But if I 
understand what you are saying, if you have a child who has 
been beat up, and beat up a number of times, but they are not 
to the point that a psychiatrist or other health care worker 
diagnoses their having a mental limitation or diagnosis, then 
there is some services you cannot provide to them that would 
prevent them from getting to that more critical level.
    Mr. SAMUELS. I think that is right. I think what we know 
from the literature and the science is that there are 
interventions that make a huge difference. We introduced three 
of them in the child welfare system while I was director in 
Illinois.
    I even had the opportunity to introduce two of them in the 
Chicago public schools, when I was the chief of staff there. We 
had a rash of student deaths. Over a two-year period of time we 
had over 500 children who were shot, and 85 that were killed, 
and there were lots of young people who were showing up to 
school every day, clearly demonstrating signs of traumatic 
distress.
    We were able to introduce two group-based trauma 
interventions that were evidence-based into schools throughout 
the city, because we knew that that was going to be the most 
effective way to reduce anxiety, to reduce stress, and to get 
better performance from children who were extremely vulnerable.
    Mr. DOGGETT. You mentioned a $250 million increase in your 
proposal. It is difficult here these days to avoid a $250 
million or more decrease. Why do you need the $250 million 
increase? What will you do with it? What would be done with 
that money?
    Mr. SAMUELS. The President's $250 million performance-
incentive proposal has 2 components to it. The first one, which 
is critical, is that states would actually have to perform 
better than they perform today to receive any of the funds. So 
this would be a performance-based distribution. So states would 
have to, using historical data, improve on an annual basis 
against themselves.
    We are not comparing one state to another, we are comparing 
states to their historical performance. And what we would be 
saying is states that demonstrate better performance, receive 
additional funds so that they can continue to invest in their 
system. States that don't improve would not have access to 
those funds. So it would be a performance-based strategy.
    In addition to that, there are a range of services that 
states currently cannot provide. We identify three areas. I 
will name them very quickly.
    Chairman DAVIS. If you could do that in one sentence, that 
will be helpful.
    Mr. SAMUELS. One, social and emotional well-being; two, 
post-permanency services--children from adopted foster care 
face a struggle long after they leave out of home care and 
achieve permanency; and third, reducing the number of children 
who age out of the system. We think if you can move upstream, 
target those children earlier, we can reduce the sad and 
troubling effects of a child aging out.
    Mr. DOGGETT. Thank you so much.
    Chairman DAVIS. Thank you. Mr. Paulsen?
    Mr. PAULSEN. Thank you, Mr. Chairman, and thank you, Mr. 
Samuels. It is pleasant to hear your passion. Based on your 
experience, that sounds like some very troubling and difficult 
situations dealing with children that you are trying to protect 
and give a good chance in the future.
    I just have a question because, you know, the last 
reauthorization was several years ago. And, as we learned in 
the opening testimony, and as I am just learning as a new 
Member of this subcommittee, some of the provisions of the law 
required the visits of at least 90 percent of foster children 
each month. And we have seen the data, that almost all the 
states have certainly improved in this measure, and no doubt as 
a result of this requirement and the money specifically 
provided to help with these visits now.
    But if you look across these states, it sounds like there 
is a wide variation of how they are actually performing, 
ranging from, like, a low of 18 percent all the way up to 96 
percent of kids that are actually being visited each month.
    What is your agency actually doing to help all the states 
meet the goals for the targeted 90 percent standard? Is there a 
penalty? You talked about sanctions earlier. Is there a penalty 
if you don't hit the 90 percent standard? Are you recommending 
one, specifically?
    Mr. SAMUELS. Under the statute, there is a penalty. States 
that don't meet their goals are subject to a penalty. Goals are 
established on an annual basis.
    However, states can invest their own dollars back into the 
system in a way that allows them to forego the penalty. I know 
of only one state that actually had to pay their penalty.
    But let me make two quick points----
    Mr. PAULSEN. And what is the penalty?
    Mr. SAMUELS. The penalty is between one and five percent of 
their allocation within the Safe and Stable Families allotment.
    You see across the country dramatic changes. There are some 
states that were in the single digits, in terms of the number 
of children that they visited. And today, 4 years later, you 
see them in the 70 and 80 percent.
    My experience is that if you shine a light on an issue, and 
you tell people that you are actually going to track them and 
hold them accountable, most people step up. That is certainly 
the case in child welfare. We think the child and family 
service review is the appropriate place to monitor ongoing 
improvement. States know we are watching them, and they have 
demonstrated that they are going to put the resources in place.
    I would welcome the opportunity to come back to Congress on 
a regular basis and report to you the progress that is being 
made. I think there is little doubt that states have figured 
out how to do this, and as long as we hold their feet to the 
fire, I think they will continue to do that.
    Mr. PAULSEN. And let me ask you this, too, because you were 
just testifying just a little bit ago about the increased 
request for additional funds----
    Mr. SAMUELS. That is right.
    Mr. PAULSEN [continuing]. Of 200-some million dollars. And, 
you know, in a tough budget environment, obviously----
    Mr. SAMUELS. It is.
    Mr. PAULSEN [continuing]. You have got to justify that. But 
what about the thought of just with existing funds going to 
that performance-based, you know, with level funding, or 
changes in funding structure, going to the performance-based 
model just in itself?
    Mr. SAMUELS. I think part of that would require 
congressional action.
    The work that we have been doing around looking at 
incentives, and particularly the indicators that we would 
track, suggest that there are opportunities to introduce such a 
system within the child and family service review. The downside 
is simply that we do not have funding to support state 
reinvestments. It is my experience that, to get better, you 
have to invest in your infrastructure.
    Today, if you get better with your infrastructure, you 
produce greater rates of permanency. The results are that you 
have fewer children in care, and therefore, you get less 
support, federally. We need funding for states to invest in 
their infrastructure, so that the quality progress that they 
have already made, can be continued. And the services that they 
have in place that are producing good results can remain in 
place.
    Mr. PAULSEN. Well, Mr. Chairman, I know, as we look at this 
reauthorization, that is one of our challenges, obviously, is 
that reform always costs money. And I think we are going to 
have to look at ways of how we are going to bring forward 
reform, knowing we are in tough budget situations to have those 
resources available.
    Chairman DAVIS. I agree. So much of this is going to be 
addressing the process and the overhead that is driven by that.
    The chair now recognizes Mr. Reed from New York.
    Mr. REED. Thank you, Chairman. Appreciate it. Thank you, 
Mr. Samuels, for your testimony today.
    I want to follow up on your point that there would be a 
need for an act of Congress to implement this performance-based 
review. What act of Congress are you exactly looking for, or 
could that--be recommending to us to pursue, if we want to 
implement----
    Mr. SAMUELS. In the context of the $250 million we proposed 
in the Fiscal Year 2012 budget, funding would be available to 
address state performance. They could earn the money if they 
performed well. If they did not perform well, they earn no 
money, but we do not take money from them.
    Mr. REED. That is the additional $250 million?
    Mr. SAMUELS. That is correct. If the suggestion is that we 
ought to implement the performance-based standards by 
themselves, we could do that. But we could not take any further 
action against states than what Congress has already given us 
the authority to do.
    I think it would be difficult, in this context, to both say 
we are going to elevate these new performance standards to 
drive states, but without new authority and new money through 
which you are able to do that.
    I appreciate the need to hold them accountable. Congress 
has given us authority to do that.
    Chairman DAVIS. Would the gentleman suspend for a second?
    Could we either ask the folks in the hallway to be quiet, 
or close the door, one or the other?
    Mr. SAMUELS. So, let me answer the question a different 
way.
    Mr. REED. Yes, please.
    Mr. SAMUELS. As a former child welfare director, I felt 
absolutely confident that the Federal Government was using all 
of its authority to hold me accountable. And I think, today, we 
are.
    So, if you want to push states beyond where they are at 
today, you either need additional resources, or you need 
additional authority.
    Mr. REED. Well, I guess what I am trying to say, Mr. 
Samuels, is I associate myself with the comments from Mr. 
Paulsen, in that the performance-based mechanism that you are 
recommending with the additional $250 million of additional 
authorization makes sense to me. And as my colleague indicated, 
these are difficult fiscal times, and the likelihood of getting 
that type of----
    Mr. SAMUELS. Absolutely.
    Mr. REED [continuing]. increased funding is probably going 
to be slim to none, in my opinion. But taking the concept of 
what you are recommending as a good performance-based strategy 
to--the expenditure of these funds, I would encourage the 
Administration to continue to pursue that. And if there is 
anything you need from Congress in order to make sure you have 
the authority to do that with the existing funding levels that 
you have, please know that we would be very supportive or 
interested in those efforts.
    I would like also to ask--you had indicated there was a 
penalty, a financial penalty to states, when they didn't meet 
their 90 percent visitation levels for foster care. And then 
you--in your testimony you had indicated something--you are 
only aware of one state that actually paid the penalty, and 
states have been able to avoid that penalty by engaging in some 
sort of practice. Could you illustrate to me a little bit 
further as to what you are referring to for those states that 
avoid the penalty?
    Mr. SAMUELS. Sure.
    Mr. REED. What are they doing, and how are they doing it?
    Mr. SAMUELS. Currently, the way a state could avoid paying 
the penalty is simply by raising their level of match. Most 
states match at a rate much higher than required. States are 
spending more money than they are obligated to spend under 
Federal law. As a result, states just demonstrate that they are 
actually spending more money--and are able to avoid the 
penalty.
    So, it is simply a mechanism where states are putting out 
more money than they are claiming. Because of that, when they 
do run into trouble, they simply put up more money, and they 
are able to avoid the penalty.
    Mr. REED. Okay. So what they are essentially doing is 
allocating more money from their own coffers to avoid paying 
the Federal Government the penalty----
    Mr. SAMUELS. That is correct.
    Mr. REED [continuing]. That is being assessed by the 
Federal Government.
    Mr. SAMUELS. That is correct. So it is not that they are 
avoiding the penalty, per se, they are simply raising the rate 
at which they are demonstrating to the Federal Government that 
they are meeting the need.
    Mr. REED. Very good. I yield back. Thank you. Thank you, 
Mr. Chairman.
    Chairman DAVIS. Thank you, and the chair now recognizes Mr. 
McDermott from Washington.
    Mr. MCDERMOTT. Thank you, Mr. Chairman, for having this 
hearing. And, Mr. Samuels, I want to go to your experience 
before you got in the Federal Government, when you were in 
Illinois, and talk to you about the training of the workers, 
the front-line workers, how long it takes, how much you spend, 
what you try and teach them.
    And the second part of that is many of these kids are--it 
is suggested that they be put on pharmaceuticals for a variety 
of behavioral problems. Who makes the decision about whether 
the child is put on those pharmaceuticals? Is it the parent, 
the foster parent, or is the worker who authorizes--in other 
words, where is the----
    Mr. SAMUELS. Sure.
    Mr. MCDERMOTT [continuing]. Informed consent? If it is my 
child, and I take my child to a physician, the physician says 
the child needs pharmaceuticals, I authorize it and take the 
responsibility. Where does the responsibility lie for the 
putting of kids on pharmaceuticals?
    Mr. SAMUELS. Sure. Currently, states are basically 
responsible for determining who has the capacity and the 
authority to consent.
    Mr. MCDERMOTT. There is no national standard----
    Mr. SAMUELS. There is no national standard on who has the 
authority to sign off on psychotropics.
    In Illinois, the case worker can sign off on a 
psychotropic.
    Mr. MCDERMOTT. Can?
    Mr. SAMUELS. Yes. However, every prescription is reviewed 
by an independent contractor. So, a case worker could go into a 
doctor and a determination could be made that a child needs a 
psychotropic. They can sign off on that. But then they have to 
submit both the diagnosis, as well as the prescription, to a 
review process. Through that review process, if we determine 
that there is an inappropriate use of psychotropics, we can 
intervene, and we can intervene with a doctor who has the 
authority and the clinical expertise to do so.
    We are also, at least in Illinois, were able to monitor 
children as long as they are on a psychotropic. So we have the 
ability to know when they started and when they stopped. That 
is important, because it is sometimes the case that a child 
will go to one physician, and as a result, get a psychotropic 
and go to a different physician at a different time and receive 
a second prescription. Those may have interaction effects.
    In Illinois, we were able to track every psychotropic that 
the child is on to assure that there is no interaction effect. 
We could monitor issues around the unintended consequences of 
psychotropics. There are side effects to almost every drug. And 
so, being able to monitor and make sure that the prescription 
and the amount does not have a side effect that creates concern 
was also part of the system.
    And ultimately, what we had is a system where every child 
had a guardian in Illinois. And that guardian can intervene if 
they believe that psychotropics are inappropriate or 
ineffective for the child that they are representing.
    Mr. MCDERMOTT. Now, how long does it take to train a front-
line worker? You take a young woman or man out of college, they 
have had maybe a social work--at best a social work degree, or 
maybe a history degree or something else, and they take a job 
at the Department of Health and Human Services of the state of 
Illinois. How long does it take you to bring them up to the 
point where they can operate independently?
    Mr. SAMUELS. In the state of Illinois, a worker would go 
through about a two-month set of training. After that two 
months they would then be paired with an experienced case 
worker. Through that case worker, their progress would be 
monitored over the next six months. And during that six months, 
there are intermittent circumstances where we bring them in for 
additional training.
    The experience in Illinois is that if you load up all the 
training up front in a classroom setting, and young people do 
not have the chance to practice and figure out where their 
strengths and weaknesses are, then you do not get the kinds of 
impact that you want, in terms of clinical competency and 
understanding of policies and programs.
    Mr. MCDERMOTT. So, the case load starts at two months----
    Mr. SAMUELS. That is right.
    Mr. MCDERMOTT [continuing]. After that first sort of 
educational block----
    Mr. SAMUELS. That is right.
    Mr. MCDERMOTT. Then you put them with actual patients?
    Mr. SAMUELS. That is right. It varies from state to state. 
So each state has their own training program for front-line 
workers. Now----
    Mr. MCDERMOTT. Now you have moved up to this Federal level. 
Do we need a national standard that emulates Illinois or 
something similar? Or----
    Mr. SAMUELS. So the position that I would take on that is 
that what we need is a national standard around the 
competencies that front line workers need to be effective in 
child welfare, more than we need a standard that says, ``Every 
state has to train every worker in the exact same way.'' But we 
ought to have a standard, and every state ought to meet that 
standard.
    Chairman DAVIS. Thank you very much. The gentleman's time 
has expired. Mr. Berg?
    Mr. BERG. Thank you, Mr. Chairman. Mr. Samuels, again, I 
want to thank you for your passion, and also your experience, 
really, from the ground up. I don't really care how big a 
school district is, 85 deaths a year just astounds me.
    But, you know, on the last reauthorization we required 
states to report how they are spending this money for the first 
time. And I am a big believer from learning from our past. What 
have we learned from that reporting on the states since the 
last reauthorization on how they spent their money? And what 
are the--again, I look at the states as the laboratory. What 
are the effective things that have come out of that?
    Mr. SAMUELS. To be honest, as a part of the last 
reauthorization, there was an increased effort to have states 
report. So, prior to the reauthorization, the standard was 
states had to submit a plan that said how they would spend the 
money. Today they also have to submit a plan about how they 
actually spent the money.
    That is the progress. We don't just have this kind of 
general understanding of what they said they would spend it on; 
they come back and actually have to report what they did spend 
the money on.
    Mr. BERG. Well, just so I am clear, so have any of those 
states given us that second part on how they spent the money?
    Mr. SAMUELS. They have.
    Mr. BERG. And then what have we done with that? I mean is 
there a matrix or measurement? Are we----
    Mr. SAMUELS. Primarily what happens with that information 
is that it is reviewed to make sure that states are using funds 
appropriately. We are looking at how they actually spend the 
money in accordance with the authority, to make sure that 
states aren't inappropriately moving money from one part of the 
budget to the other, one service to the other.
    Mr. BERG. So, really, it is a--is it appropriate, not 
whether it is an effective----
    Mr. SAMUELS. That is right, yes.
    Mr. BERG. So I guess I am assuming that people are honest 
with these expenditures, and I think we have to, obviously, 
have accountability, I mean, if we are going to get this turned 
around.
    So, maybe that is my other question. Do we have measures 
for each state? I mean I see some matrixes that you are using. 
Do we have measures, so we can evaluate a state?
    Mr. SAMUELS. We do have measures. Again, those measures and 
requirements are part of the child and family service review. 
And, as a result of that, we look at those measures every five 
years.
    Mr. BERG. Okay. What I would like to see is, if you would, 
bring a chart that would show each state.
    Mr. SAMUELS. Yes.
    Mr. BERG. And on those things that you are measuring----
    Mr. SAMUELS. Sure.
    Mr. BERG [continuing]. So we can look at each state and 
understand.
    The other question--I appreciate what you are saying, in 
terms of having accountability, asking states to improve from 
the prior year, and only would receive money if they do 
improve. You know, having said that, I think there is a certain 
level that we ought to expect. And if we have one state that is 
at the absolute bottom, making zero effort, and we have another 
state that is really doing outstanding service, you know, I 
would hate to see the state that is doing outstanding service 
receive nothing, not any incentive, and the state at the bottom 
just making a casual effort that gets them up one step and then 
another step and another step.
    And so, I just want to--you don't need to respond to that, 
I would just like to make that noted, that, again, as you are 
taking about that money, we cannot forget that people are out 
there doing a great job, and we need to support those.
    The final question I had really related to--we talked about 
the penalty, the one five percent--again, it is--states are 
smart. I am kind of disappointed that they are getting around 
this. So my question to you is, how are we going to fix this? I 
mean, truly, if we want them to do what we feel is going to 
help kids, what is our stick, or how are we going to improve 
that stick to hold them accountable?
    Mr. SAMUELS. I am hesitant to make a proposal today. I 
certainly would be willing to go back and consider that 
question and give you a more complete answer. What I can say 
today is simply that in a 4-year period of time, you have had 
about 40 percent of them meeting their visitation requirements 
to now close to 75 percent. Even though they are not actually 
paying a penalty, states are making substantial progress 
towards that 90 percent standard.
    I would be glad to come back with you to make a proposal. 
But the data clearly demonstrates that, even under the current 
system, progress is being made, and I think it is reasonable to 
assume that if we keep the light shining on this, states will 
get to that 90 percent, and they will get to it in the near 
term.
    Mr. BERG. Thank you. I will yield back.
    Chairman DAVIS. Thank you. The chair now recognizes Dr. 
Price from Georgia.
    Dr. PRICE. Thank you, Mr. Chairman. Thank you, Mr. Samuels, 
for your work.
    Serving four terms in the state legislature in Georgia, we 
have had some significant challenges in our state. And everyone 
hurts sincerely when kids fall through the cracks. And it seems 
that, often times, kids do. So I commend you for the work that 
you are doing.
    As a physician, my gut tells me that often times in these 
situations we are treating the symptoms and not the disease. So 
I want to address two specific areas of maybe not getting at 
the right area. One is the issue of waste within the system 
itself. Have you identified--with all the programs that are 
charged under your charge and elsewhere within the Federal 
Government, have you identified any redundancies in charge or 
in mission of specific programs that might be streamlined and 
better utilized, the limited resources that we have?
    Mr. SAMUELS. We are currently going through an internal 
review process for that exact purpose. As you know, the 
President put out a memo outlining the need to both look at 
reducing unnecessary activities, at the same time making sure 
that there are accountability standards. We are actually going 
through a review process now, and the general public has also 
been invited to identify areas where they think we could reduce 
administrative burden or increase accountability. I would love 
to be able to come back to you in a couple of months and share 
what we have learned through that review, and additional steps 
that we might take.
    Dr. PRICE. So your time line is a couple months on that 
report?
    Mr. SAMUELS. I think that is correct, yes.
    Dr. PRICE. And are you--you are pulling in the public. Are 
you pulling in state individuals who are--have identified----
    Mr. SAMUELS. That is correct. I mean the--a public notice 
has been--a Federal notice has been put out. So folks are 
actively engaged in reviewing those, and making 
recommendations. We have also reached out to all of the 
interest groups here, to make sure that they know that they can 
submit ideas that they have about reducing the burden of 
administrative cost.
    And so, we are beginning to see that information come in. 
But I haven't had an opportunity to review it, and would love 
to be able to come back to you and tell you more, once we have 
been able to analyze that information.
    Dr. PRICE. I look forward to seeing that. The other issue I 
want to touch on is--specifically, is the root cause of the 
challenge that we have in this country. As I say, often times 
we are treating the symptoms when we identify a kid at risk, a 
child that has been abused. We come in and try as best we can 
to help the child get through that situation.
    What is your agency--what are you doing to work with other 
areas of the Federal Government? Or are you working to identify 
the root cause of the challenges that kids have out there? And 
what are we doing to try to address that issue?
    Mr. SAMUELS. I cannot say that we are currently engaged in 
a process that is looking at root cause. What I can say that we 
are engaged in is a process of looking at the intersections 
between Federal policies across each department.
    So, we have been working closely with the Department of 
Education to see whether there are things that we can do 
different in order to get better educational outcomes for 
children in foster care. We have been working with SAMHSA and 
others to see if there is science on mental health services 
that we could learn from and integrate into the system.
    What we have tried to do is to work closely with our sister 
agencies to get smarter about the most effective strategies for 
intervening appropriately, both to prevent as well as to deal 
with maltreatment. But our focus is really on getting better 
outcomes for kids and families, as opposed to drilling down on 
root cause.
    Dr. PRICE. Is there any entity within the Federal 
Government that is looking at root cause, do you know?
    Mr. SAMUELS. I would have no way of knowing.
    Dr. PRICE. Wouldn't it be more wise for us, as a society, 
to, instead of just--instead of concentrating on treatment of 
the challenge when it arises, to try to prevent it from 
happening in the first place?
    Mr. SAMUELS. I think most would agree that prevention has a 
critical role--it reduces the long-term burden that occurs with 
the development of a mental illness, or a problem from a health 
perspective.
    While in theory, I can agree with you, I cannot, at this 
point, tell you that there is a way of getting at the root 
cause the way you describe it. I am not sure that there is a 
process currently in place, specifically, to do that.
    Dr. PRICE. Thank you. Thank you, Mr. Chairman.
    Chairman DAVIS. Thank you. The chair now recognizes Ms. 
Black from Tennessee.
    Mrs. BLACK. Thank you, Mr. Chairman, and thank you, Mr. 
Samuels, for being here today. This is an area that is 
certainly near and dear to my heart, serving in the Tennessee 
state legislature. We have dealt with issues about helping our 
at-risk children.
    And so, I want to follow up--and almost a thread--with the 
last three representatives asking questions about looking at 
prevention, root cause, evidence base. And those are probably 
words that those back in Tennessee were so sick of hearing me 
say that, that they were fed up with my asking those questions. 
But what I will say is that we finally, after 10 years, saw 
some real results. And I am very proud to say that we are, in 
your testimony, noted here about one of our programs.
    I want to say that there are good programs out there. And I 
would encourage the Department to look at those that do 
prevention. And I am going to lift one up, a nurse family 
partnership, where we know that if we take these children and 
put them--or take these young mothers and put them with people 
that can mentor them at the very beginning, that we see good 
parenting skills, healthy children, and a lot of great 
outcomes.
    So, I would encourage us to take a look in that area, and 
to start saying, ``What can we do on the prevention side, so 
that we don't have to treat these children for many, many, many 
years for things that are poor outcomes in their homes.'' So--
--
    Mr. SAMUELS. Within the administration we can point out a 
number of areas where prevention and evidence base has been 
combined.
    Certainly the home visiting initiative that is in its first 
year--it is $100 million, next year it is almost $250 million--
specifically targeting the prevention of the kinds of problems 
you have described. I think the home visiting is a good 
example.
    There is also considerable money invested in teen pregnancy 
prevention. In the child welfare system we have been working 
with agencies to introduce home visiting related to reducing 
abuse and neglect, which I think moves in the right direction. 
And we are currently spending some of our discretionary dollars 
to introduce evidence based trauma informed practice as a means 
of getting at some of those programs you described.
    Mrs. BLACK. Okay, so let me go to--I know I have limited 
time--let me go to my next piece on this, is that you do lift 
up in your testimony, in the PSSF program, where there are a 
number of states that you recognize for programs that they have 
initiated. And I know that one here in North Dakota 
specifically is an evidence-based program.
    Mr. SAMUELS. Yes.
    Mrs. BLACK. How are you using what is happening in 
incubators back in these states to be able to help other states 
to make sure that what we are using is evidence-based? Because 
what I have found in our state is that we spent a lot of money 
on programs that people said, ``Oh, they are nice and they are 
good,'' but there was not a measurement tool.
    And that may be where I think that we come in, from the 
Federal level, in whatever the states are doing, to lead them 
more toward evidence-based programs, as opposed to spending 
money on things that maybe, oh, they feel good, or somebody 
says they work, but we cannot measure them.
    So, number one, is what are you doing to use what comes to 
you from other states that is evidence-based and working to get 
that out, nationwide?
    And then, do you do anything to hold states accountable for 
the money that is spent in saying how is it evidence-based, are 
you measuring your programs--not directing them on what they 
necessarily have to do, because they are incubators, I 
understand that, but to at least say, ``Whatever you are doing, 
you are spending the money on, you have to show that there are 
results on the other side that are measurable.''
    Mr. SAMUELS. I would respond in two ways. One is that we 
certainly have integrated the evidence-based standard into much 
of the discretionary grants that we are currently making. There 
were evidence-based programs that were funded in the 2010 
cycle. We would anticipate funding additional ones in the 2011 
cycle.
    To date, child welfare agencies have not been held 
accountable for how they choose to spend money. They have been 
held accountable for whether that money produced outcomes that 
we care about in child welfare. So, I think it is hard to say 
that today we are holding them accountable for using evidence-
based practices. What we are saying is you ought to be using 
whatever strategies are most effective at getting to the 
outcomes that you are being held accountable for.
    So, it is a slightly nuanced answer. We are not requiring 
evidence-based practices, but we are telling them that, ``We 
are going to hold you accountable,'' and we are trying to drive 
them in a direction of selecting and identifying evidence-based 
programs.
    We have also tried to elevate the presence of evidence-
based strategies in a number of initiatives we are engaged in. 
Again, I point to trauma as one example, and the mental health 
services as another example where we have been demonstrating to 
states that evidence base can advance their cause.
    Chairman DAVIS. Thank you very much. The gentlewoman's time 
has expired. And last, but not least, the chair recognizes Ms. 
Bass from California.
    Ms. BASS. Thank you. Well, first of all, Mr. Chair, thank 
you for allowing me to ask questions, given that I am not in 
this committee.
    But I just wanted to ask you briefly about what is going on 
in states. Coming from California, a state that is in a 
terrible economic crisis like so many others, you talked about 
how states are meeting their targets, in terms of requirements, 
that the Federal Government places. Do you find--are you seeing 
anywhere, given the economic crisis in the individual states, 
that they are going backwards?
    And also, are states cutting back on their match?
    Mr. SAMUELS. I am unaware of any instance in which the 
states are cutting back on their match. We would be glad to go 
back and take a closer look at that if you would like, but I am 
not aware of any instances where that is occurring.
    I think certainly we can read about all of the reductions 
that are being made in state after state, and we have concerns 
around particularly case work ratios. We are concerned that 
with fewer workers doing those visits, meeting their 
obligations are harder to achieve. But at this point we don't 
have any evidence that we can specifically point at that says 
that, as a result of cuts, states are unable to meet their 
obligation.
    But again, our responsibility is to monitor that on a 
regular basis. We are trying to do that. And if we were to find 
that states, as a result of cuts, aren't meeting expectations, 
aren't meeting requirements, we would engage with those states 
and make clear to them what their Federal obligation is, and 
how we would hold them accountable if they fail to meet their 
obligation.
    Ms. BASS. Thank you.
    Chairman DAVIS. Thank you very much for investing the time, 
Mr. Samuels, coming here today to share with us. We are looking 
forward to working with you in continuing this dialogue to 
structure a reauthorization that addresses efficiency in 
process, but most of all works to help get to the root causes 
and protect kids out there on the front lines.
    If Members have additional questions, they will submit them 
to you in writing. And we would appreciate your responses back 
to the committee also, for the record.
    This concludes our second panel, and thank you very much, 
again.
    Mr. SAMUELS. Thank you.
    [Pause.]
    Chairman DAVIS. I appreciate everybody coming for the third 
panel, and also your patience, and also grateful to the powers 
that be that no votes have been called in the midst of this. I 
think we are going to be able to complete this without 
interruption on this critical subject.
    We are going to have five distinguished panelists. For me, 
in particular, it is very exciting to have our own long-serving 
front-line leader, Patricia Wilson, the commissioner of the 
Department of Community-Based Services from the Kentucky 
Cabinet of Family and Human Services. And most important to me 
in her extensive background is not the long list of accolades 
or administrative leadership positions that she had, it was her 
many, many years of front-line experience that brings a unique 
perspective to the work that she is doing now in helping 
children in the Commonwealth. I appreciate your being here very 
much.
    We also have: Lelia Baum Hopper, director of the Court 
Improvement Program for the Supreme Court of Virginia--thank 
you for being with us; Tracy Wareing, the executive director of 
the American Public Human Services Association; John Sciamanna, 
director of policy and government affairs, child welfare, at 
the American Humane Association; and Steve Yager, director of 
the Children's Services Administration from the Michigan 
Department of Human Services.
    Ms. Wilson, please proceed with your testimony.

 STATEMENT OF PATRICIA R. WILSON, COMMISSIONER, DEPARTMENT FOR 
   COMMUNITY BASED SERVICES, KENTUCKY CABINET FOR HEALTH AND 
                        FAMILY SERVICES

    Ms. WILSON. Thank you, Chairman Davis, Ranking Member, 
Members of the Subcommittee. Thank you so much for this 
opportunity to talk to you this morning about programs that are 
of supreme importance to our nation's children. I am honored to 
speak with you about these two programs that are so critically 
important to our nation's children: Child Welfare Services and 
Promoting Safe and Stable Families. In Kentucky alone, 
approximately 50,000 children are touched annually by these two 
programs.
    Most of my comments this morning are going to focus on the 
three key aspects that were in the last reauthorization: the 
monthly case worker visits, the regional partnership grants, 
and working with parents with substance abuse issues.
    First, the monthly case worker visits. As Chairman Davis 
noted, I am a former front-line worker and supervisor, 
something I am very, very proud of. I applaud Congress for 
setting the benchmark that every child in foster care should be 
seen every month. Nothing is more important to those children 
to have that contact with the individuals who know their case, 
who know their families, who know what is happening. It is also 
essential, as we move those children toward permanency.
    However, I would like to note that the method of 
calculating that performance is of concern to just not only my 
state, but to others. The current calculation is child-based, 
meaning that any missed visit to a child within a 12-month 
period negates all the visits that were made to that child. An 
alternative that could be considered would be looking at every 
visit counting as an event, in and of itself. And states would 
be given credit for all the visits that are made to children. 
States should be held accountable. Sanction is an acceptable 
means of correcting poor performance. But we also believe that 
states should be recognized for the performance that they do 
make
    Funding to support the case worker visits is much needed to 
help off-set the rising cost of transportation. Again, in a 
rural state such as ours, where children are sometimes placed a 
distance from their home in order to receive the treatment they 
need, the mileage that our staff incur traveling to and from 
those visits is costly for the state, and we appreciate the 
extra compensation to address that.
    The second aspect, improving outcomes for children with 
substance-abusing parents or caregivers. Last year in Kentucky, 
60 percent of the children in substantiated reports of child 
abuse or neglect were found to have families exhibiting 
substance abuse issues. It is a tremendous problem in our 
state.
    I do want to highlight, though, the positive impact of one 
of the regional partnership grants that Kentucky was fortunate 
to receive. Martin County, in rural Appalachia, has just over 
12,000 residents in the entire county. But it leads Kentucky in 
the percent of the child population in substantiated reports of 
child abuse and neglect. Approximately 6\1/2\ children out of 
every 100 children in that county were found to have 
substantiated reports. That compares to 1\1/2\ children per 100 
in the rest of the state. Half of those children were ages six 
or younger. Substance abuse by the parent was a driving force 
in the majority of those cases.
    Prior to the regional partnership grant, there was one 
substance abuse counselor in the entire county who provided one 
day of outpatient service per week. There was a four-month 
waiting period to even receive one hour of service per week. 
There were no support groups.
    With the grant, we were able to replicate a--our START 
program. This program pairs highly-trained parent mentors with 
specially-trained child protective service workers to provide 
intensive case work services to the families, partners with 
substance abuse treatment professionals to ensure quick access 
to treatment, and partners with the court to identify options 
for child safety and permanency.
    In the two-plus years of operation, the county has 
developed intensive outpatient services that are available four 
days and several nights per week. There are now 9 weekly 12-
step meetings and a Families Anonymous meeting. There is a 
support group. And, very importantly, transportation is able to 
be provided to those individuals who need help in either 
accessing services, or--we have found through our evaluation 
accompanying the individual to the first four appointments with 
their substance abuse counselor is one of the most effective 
means of keeping them in treatment.
    To date, more than 40 percent of the parents served, most 
of whom are young marrieds are in their 20s, and have among 
them more than 100 children, have been able to become sober and 
maintain their children safely at home. Over time, we believe 
the success rate in Martin County will equal that of the 67 
percent success rate that we have in the other 3 counties where 
this program exists.
    Finally, the coordination of health care needs with 
children. We have entered into a cooperative agreement with our 
commission on children for special health care needs to address 
those needs of children in foster care by deploying registered 
nurses across the state. A larger issue, though, as 
Commissioner Samuels noted, is the use of psychotropic 
medicines.
    We have concerns that children who are taking multiple 
psychotropic meds may not have regular psychiatric 
consultation, that those medications may be prescribed by 
someone other than a child psychiatrist, and that there are 
children who are receiving benefit of that that could also 
benefit from alternative methods of behavior management.
    In closing, I would offer a general comment about the 20 
percent distribution, the interpretation across the 4 broad 
categories in Safe and Stable Families.
    Chairman DAVIS. If you could, sum up quickly, please----
    Ms. WILSON. Yes, sir.
    Chairman DAVIS [continuing]. Your time has expired.
    Ms. WILSON. With 15 years plus of experience, and data to 
support the assertion, states are finding there is a need to 
rebalance the funding within the service needs of families. 
Allowing states more latitude in determining the distribution 
of that allotment would provide increased opportunity to fully 
actualize the goals of Safe and Stable Families.
    Chairman Davis, Members of the Subcommittee, we appreciate 
your support, we appreciate your concern for children and 
families.
    We urge reauthorization, and I thank you for the 
opportunity to present the views.
    [The prepared statement of Ms. Wilson follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. Thank you very much.
    Ms. Hopper.

  STATEMENT OF LELIA BAUM HOPPER, DIRECTOR, COURT IMPROVEMENT 
               PROGRAM, SUPREME COURT OF VIRGINIA

    Ms. HOPPER. Good morning, Chairman Davis, Members of the 
Committee. Thanks for the opportunity to discuss funding by the 
Virginia Court System of court improvement program funding. My 
name is Lelia Hopper, and I am director of the court 
improvement program in the administrative office of the courts, 
under the Supreme Court of Virginia. I have worked with the 
court improvement program since it was first authorized by 
Congress, and grants were made available in 1994.
    The challenge for court improvement programs is to sustain 
the considerable energy that it takes on the part of the 
judiciary and professionals who carry out the reforms daily 
that you all have instituted. Today, excellent court practice 
requires that we go beyond the basics. Since 2006, when the new 
CIP grants for training and data collection and analysis were 
made available, we have been able to substantially improve upon 
and energize early system reform efforts.
    Training grant funds since 2006, including those planned 
through the end of this grant year, have enabled Virginia's 
court improvement program to support 123 local and state 
training events, with more than 12,000 participants. We have 
also provided funding for juvenile court judges, attorneys, 
child dependency mediators, staff for CASA programs to attend 
13 national educational events that have enhanced their skills. 
The large majority of these individuals would not have 
benefitted from these educational opportunities without CIP 
funding support.
    In Virginia, many juvenile court judges provide leadership 
in their communities to provide--to improve child dependency 
court processes on a multi-disciplinary basis. Their 
involvement is supported by the best practice court program, 
instituted by my office in 2002, and substantially supported in 
the past 5 years with training grant funds.
    Today there are 37 active court teams, which account for 60 
percent of Virginia's foster care caseload. These teams have 
committed--have contributed to a 27 percent decrease in the 
number of children in foster care in Virginia over the past 3 
years. This reduction has been accomplished as a part of a 
transformation of Virginia's children's services system, of 
which the courts have been an integral part.
    The data grant. Our office produces 10 court performance 
measurement reports, utilizing case information that is entered 
by court staff into the juvenile case management system. In 
2010 we began development of these reports into web-based 
formats, making them more interactive and user friendly. We 
will complete this project this September.
    In 2008, we began making analyses of local juvenile court 
performance measures available to the courts. This analysis 
process is initiated by the presiding juvenile court judge, 
includes a written report, a meeting, and recommendations to 
improve court practice. To date, we have completed 15 of these 
court analyses.
    An interface between the courts and the state department of 
social services is something we have been working on for quite 
a while. Both of our agencies recognize that an interface would 
improve the ability of the courts and social services to 
process paperwork and make timely decisions for children in 
foster care. And we are scheduled to begin implementation of 
the first phase at the end of this year.
    Finally, we also have available online to our judges--and 
it is only to judges--something called the active foster care 
children report. It is updated daily and provides a snapshot of 
children in foster care identified by locality. It includes 
demographic information, foster care placement information, 
funding resources, and critical hearing dates. Prior to this 
electronic transmission, we could only provide this information 
twice a year in a hard copy to the courts.
    Mr. Chairman and Members of the Subcommittee, Virginia and 
the other court improvement programs across the country are 
effectively utilizing the court funds that you have provided to 
improve court practice. And we believe we are making a 
measurable difference for families and children who are under 
the jurisdiction of the court system.
    Thank you for your time.
    [The prepared statement of Ms. Hopper follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. And thank you very much for your good work 
in Virginia.
    Ms. HOPPER. Thank you.
    Chairman DAVIS. Ms. Wareing.

STATEMENT OF TRACY WAREING, EXECUTIVE DIRECTOR, AMERICAN PUBLIC 
                   HUMAN SERVICES ASSOCIATION

    Ms. WAREING. Good morning, Chairman Davis and Members of 
the Subcommittee. I am Tracy Wareing, executive director of the 
American Public Human Services Association. And thank you so 
much for the opportunity to testify today regarding the 
promoting Safe and Stable Family and Child Welfare Service 
programs. And it is an honor to be sitting here with such a 
distinguished panel, as well.
    The American Public Human Services Association is a non-
profit organization whose membership includes the Nation's top 
government human service executives from across each of the 
states, the District of Columbia, as well as hundreds of human 
service directors at the local--at the county level. We happen 
to also house nine affiliate organizations, including the 
National Association of Public Child Welfare Administrators, 
and I speak on their behalf today, as well. We are a bipartisan 
organization whose ideas and direction come from the open 
exchange and deliberation of the expertise of our members, two 
of which are on this panel, as well.
    This morning I would like to address the importance of 
prevention of child maltreatment, and the support of front-end 
services for children and families at risk, and then share two 
recommendations with you for revisions, as you consider 
reauthorization.
    As you know, Promoting Safe and Stable Families is one of 
the few Federal funding streams that supports services aimed at 
preventing children from coming into out-of-home care. In 2009, 
states reported PSSF funding as the single largest source of 
funding for preventative services, covering nearly 30 percent 
of children receiving preventative services, nationwide.
    Over the past five years, states have successfully reduced 
the number of children in foster care by more than 20 percent, 
as you heard from Mr. Samuels. In that same time period, the 
national repeat maltreatment rate also declined. By promoting 
community-based family support, family preservation, 
reunification services, and adoption support, PSSF has played a 
critical role in helping states alleviate situations that might 
otherwise lead to children being placed in foster care, due to 
abuse or neglect, or staying in care too long.
    We also appreciate the substance abuse and methamphetamine 
grants that were made available to states. These grants have 
been helping states to offer an array of services to address 
the specific needs of these families, and use a range of 
strategies too prevent and treat substance abuse. As you 
consider reauthorization of these programs, we want to 
acknowledge the importance of these to the states, and urge 
that you continue them.
    However, I think, as we have heard today, the bulk of 
Federal funding for child welfare is directed toward out-of-
home care, and it comes from a patchwork of funding streams, 
and it is not directed to prevention. The overall allocation of 
title IV-E funds, compared with title IV-B funds, is about $10 
of out-of-home care funding for each dollar of in-home funding. 
We urge this committee to address comprehensive child welfare 
finance reform, and recommend increasing support for 
preventative and supportive services in directing Federal 
resources toward the front end, to improve the outcomes of 
children and families.
    While our members support the need for flexibility to 
deliver on an array of services that are responsive to the 
special needs of their community, they also understand the role 
of the Federal Government in ensuring Federal dollars are spent 
wisely and correctly, and that the outcomes we all desire are 
met. As our members continuously improve their internal 
processes, they have also worked to develop practical 
recommendations on streamlining Federal accountability measures 
under IV-B and IV-E, and have offered ideas to the 
Administration around that.
    But the methodologies for monitoring and measuring must be 
related to the outcomes we all desire to see. To that end, as 
you consider reauthorization of Promoting Safe and Stable 
Families, we recommend: one, relaxation of what is sometimes 
referred to as the 20 percent rule, which essentially requires 
equitable spending across the four categories of PSSF funding. 
That spending restriction is too rigid.
    Just to give you one example, California has shared with us 
that many of their smaller counties, some of which may perform 
no more than a few adoptions a month, struggle with utilizing 
the 20 percent spending requirement on the adoption promotion 
and support services. In those communities, the funds would be 
better directed to community-based family support and 
preservation.
    Additionally, a colleague on the panel here mentioned the 
methodology for calculating monthly case worker visits of a 
child. Our members are deeply committed to the best practice of 
timely, effective, and regular case worker visits, and the role 
they place in ensuring safety and facilitating reunification 
and permanency. But the fact is, the current methodology is 
flawed. A case worker could, in fact, see a child 20 times a 
year, but if 1 month was missed, that case and those visits are 
not counted.
    My written statement provides specific recommendations that 
our members believe will result in a much more accurate picture 
of the diligent efforts being made. And let me emphasize this 
is about methodology, not intent. Our members fully support the 
benchmarks set by the 2006 reauthorization.
    With that, I thank you so much for the opportunity to be 
here. We urge reauthorization of Promoting Safe and Stable 
families and Child Welfare Services programs, and would welcome 
questions. Thank you.
    [The prepared statement of Ms. Wareing follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. Thank you.
    Mr. Sciamanna.

 STATEMENT OF JOHN SCIAMANNA, DIRECTOR, POLICY AND GOVERNMENT 
      AFFAIRS, CHILD WELFARE, AMERICAN HUMANE ASSOCIATION

    Mr. SCIAMANNA. Thank you, Chairman Davis and Members of the 
Subcommittee.
    Since 1877, the American Humane Association has been a 
national leader in developing cutting edge initiatives to 
prevent and respond to child abuse and neglect. Our work in 
research, family group decision-making, differential response, 
and father engagement are a few examples of our efforts to 
strengthen families, children, and communities.
    Let me talk briefly about some of the important services 
under PSSF. Reunification services. Once a child has been 
reunified, access to after-care is limited, since Title E funds 
provides for support only when a child is in foster care.
    This week we co-hosted a briefing on Capitol Hill focusing 
on reunification. The compelling stories of the families who 
were there who were reunified with their children provided 
strong evidence that we could do so much more in this area. In 
2009, 276,000 children left foster care and 51 percent were 
reunified with their parents, we feel we can do much more in 
this area.
    One of our recommendations is that if we can't enact a 
comprehensive finance reform this year, then we should extend 
title IV-E entitlement funds to services for reunification, 
allowing dollars to address the only permanency option not 
currently funded under IV-E.
    We also recommend that the current 15-month restriction 
under Promoting Safe and Stable Families be removed, since we 
would like the dollars to follow the children home into the 
family.
    Adoption services. This subcommittee was key to enactment 
of the Fostering Connections to Success, and Increasing 
Adoptions Act. That started us towards a comprehensive reform 
of the finance system by eliminating the link to AFDC for 
adoption assistance.
    We are increasing the number of adoptions annually, and 
have made great success in the last decade. But for a small 
percentage of these families, there is a need for post-adoption 
services, as Commissioner Samuels mentioned today. Recently a 
coalition led by Voice for Adoption held a Capitol Hill 
briefing, with one of the recommendations being that there be 
specific funding to address these post-adoption services, so 
that states can establish an infrastructure.
    We recommend that the definition of adoption services under 
Promoting Safe and Stable Families be examined to see whether 
or not we could direct more dollars toward post-adoption 
services.
    We also suggest that when Congress created the de-link, 
that they directed states to reinvest dollars, maintenance of 
effort into Child Welfare Services. Congress may want to look 
at directing those dollars, as some adoption groups have 
advocated, toward post-adoption services as a way to provide a 
steady source of funding.
    Family support and family preservation are two very 
critical services. We certainly hope that they will continue to 
be categories in this area. There has been some consideration 
in the past about whether or not these categories should be 
collapsed. But we think that they, the four services, address 
four distinct families.
    The big challenge for all of this funding is that in recent 
years, when this committee has increased mandatory funding, 
appropriators have sometimes used it as a rational to decrease 
the discretionary piece of this program.
    The need for substance abuse services. We would echo a lot 
of the comments that have been heard here today. There is 
growing evidence about the importance and the effectiveness of 
comprehensive family treatment. We would suggest, however, that 
the specification toward methamphetamine be broadened, since 
there are a range of substance abuse issues and problems, 
depending on the locality and the part of the country, and 
grants should be based on the most effective strategies.
    Workforce development you have also heard a great deal 
about. Case load visits are important. But, as you have heard, 
there are some problems with the data collection. We need to 
work on that. What we don't want is a system where we are just 
checking off visits. Instead, we will need to encourage quality 
visits. We have done a number of workforce studies for states 
to help them with that, to establish quality visits.
    We think if the funding cannot be increased, we need to 
design a workforce strategy. Perhaps Congress should look at 
some sort of a race to the top that would allow some states to 
invest and--provide strategies that could develop a child 
welfare workforce development plan over several years.
    Court improvement. I won't go into great detail here, 
because you have heard about the effectiveness of that. So we 
certainly hope that Congress will keep--and, if at all 
possible--increase funding.
    We also want to emphasize that recently we released a 
report with several organizations about maltreated infants and 
toddlers. They are the biggest population coming into contacted 
with the child welfare system. We think there needs to be 
greater focus on this population, not to the exclusion of other 
populations, but perhaps we can, in the oversight or in the IV-
B-1 plan, outline what states are doing to address this 
vulnerable population.
    Finally, in my closing comments, let me just say that if 
Congress cannot complete finance reform in this session, that 
they look at different ways to extend current funding in IV-E, 
whether it is to reunification services, or to doing some up-
front services, such as differential response, an approach 
several of the states represented here today are implementing.
    In closing, we appreciate the efforts of this subcommittee 
and others to pursue these matters in what has always been a 
bipartisan and bicameral way. As some of the Members of this 
committee have pointed out in the past, children in foster care 
and child protective services are, in fact, our responsibility. 
And we need to make sure that we are their good parents until 
they find permanent families.
    [The prepared statement of Mr. Sciamanna follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. Thank you very much.
    Mr. Yager.

STATEMENT OF STEVE YAGER, DEPUTY DIRECTOR, CHILDREN'S SERVICES 
     ADMINISTRATION, MICHIGAN DEPARTMENT OF HUMAN SERVICES

    Mr. YAGER. Good morning, Chairman Davis and Members of the 
Committee. Thank you for inviting me today to testify on child 
welfare reauthorization, specifically the Child Welfare 
Services program and the Promoting Safe and Stable Families.
    Today I want to hit three areas, as my colleagues have 
covered a couple of other areas. I want to touch on case worker 
visits, data infrastructure, and audits.
    Case worker visit funding is essential, and it has had 
positive impact on the children in Michigan. Michigan has seen 
a rate of case worker visits improved dramatically through the 
use of funding. Our base line in 2007 showed 14 percent of case 
workers actually achieving monthly visits with each child. In 
2010 that rate increased to more than 70 percent.
    We continue to aggressively pursue training for public and 
private case workers, courts, in foster and resource families, 
so not only will our rate of visitation improve to 90 percent 
by the end of fiscal year 2011, but also our quality will 
improve.
    Reauthorization and extension of the case worker visit 
funding will support our initiatives to continue improvement in 
the rate and the quality of home visits. I would concur with 
our colleagues regarding the method of determining compliance 
for that. It is a concern that I would share with them.
    As for substance abuse services, Michigan sees this as a 
continued need, as has already been stated, and we strongly 
support reauthorization of that funding.
    Data-driven decision-making. Michigan's data-driven 
decision-making initiative began out of necessity. Our goal has 
been to provide central administration and local office 
management and staff with the reports necessary to increase 
positive outcomes for the children and families served in 
children's protective services, foster care, adoption, 
licensing, and juvenile justice programs. Our philosophy is to 
provide the field with data reports so they have the knowledge 
needed to manage the workforce proactively, and focus on key 
areas of practice that have been shown to increase child safety 
permanence and well-being.
    In addition, the data reports provide central 
administration executives with the ability to review county 
performance, and the same areas of practice across the board.
    Now, for a minute I would like to speak a little bit about 
audited processes. Michigan recommends that all Federal 
processes be streamlined and linked, so the frequent intrusions 
and required corrective action plans resulting from the myriad 
reporting and review requirements are eliminated.
    For a state like ours that is also operating under Federal 
court consent decree, writing the reports, measuring data in 
subtle but different manners for each process and then 
participating in Federal reviews, program enhancement 
activities, leaves us with little time to work on implementing 
meaningful change.
    From 2008 to 2010, Michigan underwent a title IV-E review, 
child and family services review, statewide assessment and on-
site review, the CFSR program improvement plan, the title IV-E 
departmental appeals board litigation, the children's rights 
lawsuit, and SACWIS on-site review, and other reviews of the 
public assistance side of the department. We do not object to 
oversight, but to the increasingly seemingly constant nature of 
that oversight.
    Michigan wants strong accountability in the operation of 
child welfare programs, but these divergent reviews and 
monitoring processes are too numerous to be value added, 
particularly to the staff responsible to providing services to 
families.
    Michigan recommends that current Federal review and 
planning processes for the child family services review and the 
child family services plan be blended into integrated and 
coordinated state planning processes. The proposal proffered by 
the American Public Human Services Association and the National 
Association of Public Child Welfare Administrators establishes 
both the manner in which this could occur, and the rationale 
for coordination. The proposal recommends a modified CFSR 
target of no more than three key practice areas. The state 
would be held accountable for its efforts to achieve 
sustainable improvement in those targeted areas.
    Assessment data and continuous quality improvement 
activities form the basis of these activities. The proposal 
would employ qualitative data from the state's case review 
system, giving the review a real-time value, instead of the 
historical data profiles employed in the current CFSR process.
    Under a coordinated plan, the states could more readily 
adapt to changes in funding, legislative focus, program 
operation, and external influences, essentially becoming more 
nimble in response to these changes. Currently, the two-year 
PIP period is counterintuitive to how child welfare really 
operates. Renegotiation is required for these modifications.
    With respect to the commonality of data, we agree that 
national data standards need to be established. However, the 
child family services review data profile and measurement 
processes confuse external stakeholders, case workers, other 
agency partners, and the consumer community, including the 
legislature and press. This confusion often unjustly 
contributes to public disdain for our work, and impacts staff 
morale.
    States should have more control over their individual 
processes. Michigan recommends using longitudinal data to 
assess our performance. This data modeling has a higher degree 
of reliability and we are able to move more quickly to assess 
the impact of changes in our policies and processes.
    Another key component is----
    Chairman DAVIS. If you could, sum up quickly, Mr. Yager.
    Mr. YAGER. We need an external review process, and we have 
that in Michigan. Blending the external with our internal 
processes will improve the review system.
    We believe the children's bureau, through technical 
assistance, can enable us to develop a more effective state-
based system and would satisfy Federal review.
    Thank you for your time today. I appreciate this 
opportunity. I want to encourage you to reauthorize the Safe 
and Stable Families.
    [The prepared statement of Mr. Yager follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman DAVIS. Thank you. Foster care is a shared system 
between the Federal Government and the states. I would like to 
start with Ms. Wareing. Given the 20 percent decline in the 
foster care caseload in the last 5 years, are states spending 
less, in terms of state dollars, on foster care and related 
programs?
    Ms. WAREING. Well, I actually don't--Mr. Chairman, I think 
that they are spending less on foster care. I think that they 
have tried to redirect some of their dollars to in-home 
services, because there is not the Federal support at that 
level. So, trying to work on things where you are promoting 
children being safe, but before they come into the child 
welfare system, and that requires a large amount of state 
funding in order to do that because there are limited--only, 
really, the title IV-B funds are available to support those 
types of programs.
    Chairman DAVIS. I noted a suggestion in your statement, as 
well as by others on the panel today, that there should be more 
flexibility in how Federal foster care and other funds are 
spent, including for services. Are states leading by example 
and devoting any state foster care dollars no longer needed 
specifically for foster care to services to prevent foster 
care, placements, and otherwise assist families?
    Ms. WAREING. From my experience--and I would certainly 
welcome colleagues who are closer to the ground--but yes, I 
think that is where states have tried to put their resources 
into programs that allow children to either not come into care 
or get home quickly. But that--you know, that has required a 
very concerted effort, and it does require resources around 
those prevention programs in order to make that happen.
    Chairman DAVIS. Ms. Wilson, would you like to comment, from 
a Kentucky perspective?
    Ms. WILSON. From a Kentucky perspective, we are actually 
spending as much or more money on foster care, the difference 
being that the total expenditure base may not be rising more, 
but the Federal support is declining. So we are spending more 
state dollars.
    We are taking, though, both Safe and Stable Families 
dollars and any other state-appropriated monies that we can 
redirect into preventative services. We wholeheartedly would 
like to see the number of children in foster care reduced by a 
greater proportion than what it is.
    Chairman DAVIS. Thank you. I would like to open a question 
up for the panel overall, just in my limited time. Earlier in 
the hearing we heard Mr. Samuels's ideas about streamlining. He 
talked about oversight streamlining, limiting measures of 
performance, the way the annual audits were approached. I would 
like to open it up for the panel on your thoughts on the 
proposal, on his ideas.
    Ms. WAREING. Mr. Chairman?
    Chairman DAVIS. And then we will go to Mr. Yager next.
    Ms. WAREING. Thank you. I would echo--first I would say 
that, on behalf of the American Public Human Services 
Association, we would acknowledge that Mr. Samuels and his 
staff have been very open to participation from the states. 
They have asked and reached out directly to state 
administrators and deeper to--for ideas about how to streamline 
the process.
    Our recommendations--and we have formal recommendations 
that we would be happy to share with this committee--would 
really bring together what are, in effect right now, planning, 
and then a review process, and then a monitoring process, and 
then a come back in and monitor again, into one seamless review 
process that would exist under the CFSR.
    Chairman DAVIS. Thank you. Mr. Yager?
    Mr. YAGER. I would support what Mr. Samuels had said. I 
think that's a great approach.
    I think there needs to be a fundamental shift away from 
multiple on-site reviews, often looking at the same cases at 
different points in time, to looking at the state's quality 
assurance system, encouraging a robust state quality assurance 
system that possibly could be certified by the Federal 
Government. They could then go into information out of the 
state's own system, as opposed to duplicating reviews across 
multiple counties.
    Chairman DAVIS. Mr. Sciamanna?
    Mr. SCIAMANNA. Yes, and we would agree that there is a need 
to do some reform for some oversight.
    One that especially is based more on outcomes for 
children--actually, this committee was, I think, instrumental 
in the Fostering Connections, in that you started to look at 
some of those outcomes in other areas, in terms of health 
planning, in terms of educational outcomes.
    And so, being able to kind of track that, and obviously 
also what is done at the front end, I think would be 
important--what we would like to see is a partnership more 
between the states and the Federal Government, so that that 
oversight and plan improvements can be jointly developed and 
implemented.
    Chairman DAVIS. I appreciate that. One of the things that 
we have started to work on in this subcommittee with an earlier 
piece of legislation--hope to see follow through every one of 
the entitlement reauthorizations--is data standardization and 
data integration that would allow us to bring the Federal 
Government into the 21st century, and move away from the old 
Cobalt-based programs of the 1960s and 1970s, make it more like 
the private sector, in terms of both data accuracy, but 
significantly reduce improper payments and, frankly, pushing 
redundant measurement programs out on you from the different 
agencies, so we can drill down and get that data, and hopefully 
have a more proactive partnership.
    With that, I would like to recognize the gentleman from 
Minnesota, Mr. Paulsen, for five minutes.
    Mr. PAULSEN. Thank you, Mr. Chairman. I will just ask a 
question of Ms. Wareing. You mentioned--at the end of your 
testimony you talked about one-fifth of the SSBG funding, about 
340 million of it, was devoted to prevention. I just noticed at 
the end of your testimony. Can you provide some additional 
background on that program, just for the record?
    I guess I am kind of interested in knowing what states 
spend that $340 million specifically on that you said is 
devoted to prevention. Like what type of prevention services, 
with at least some description of what those services do, or 
what they are.
    Ms. WAREING. Mr. Chairman and Congressman Paulsen, let me 
try to broad-brush, and if there are more specific information 
that we could detail you, provide for you with how states 
specifically spend that money, we are happy to do that 
research.
    But SSBG funding is the second-largest funding source for 
prevention activities, next to Promoting Safe and Stable 
Families for states. And they are able to leverage those 
dollars and really direct them to community-based services that 
are really designed much more on the prevention side of 
supporting families and--in the hopes that we are able to keep 
children safe and families well.
    And so, they could be things like some of the same kind of 
things that you might see in Promoting Safe and Stable 
Families. It could be community supports, it could be home 
visitation. It could be neighborhood parenting types of 
classes, and those types of things. You know, many of them, I 
think, are evidence-based--some of the questions that 
Congresswoman Black had talked about, in terms of ensuring that 
sort of--that the dollars are actually going to programs that 
work.
    But I would also say there are very few programs that have 
the kind of flexibility where you can leverage other dollars. 
And that is really what SSBG provides. It allows funds that may 
not be sufficient for a particular community to really be--to 
give you that extra push that you really need.
    Mr. PAULSEN. Is there a way to identify, like, how many 
families or people are actually served by this spending on 
prevention services, to get down to that type of data? Can you 
drive down to that?
    Ms. WAREING. Mr. Paulsen, I don't know, off the top of my 
head, but I would certainly be willing to look at that.
    Mr. PAULSEN. Or even what the average amount, for instance, 
per family or per person is, you know, allocated or is a part 
of that, just to--that would be helpful data, I think, as we 
are kind of looking at the--sort of the prioritization or the 
benefits of some of these programs, because you did note that 
in the testimony.
    Ms. WAREING. Yes, absolutely. And it is incredibly helpful 
funding. I would say it is designed to be flexible funding. And 
so I am not sure, off the top of my head, how precise they can 
go to the dollars spent per family, but we will certainly look 
at that for you.
    Mr. PAULSEN. Please, Mr.----
    Mr. SCIAMANNA. Just in regard to the social services block 
grant, there has been a series of surveys of states conducted 
by Child Trends most recently, and Urban Institute every two 
years, asking states what they spend on child welfare services. 
And SSBG has pretty consistently been around--I think it's 20 
percent of the Federal funding that states invest.
    It varies by the 50 states. It will be about 300 million in 
the child protective services, nationally, but may also 
supplement what states do in terms of foster care, adoption 
assistance and support, and for youth. So there is a range of 
services that it does provide. But it has been a very critical 
component of the child welfare funding system.
    Mr. PAULSEN. Thank you, Mr. Chairman. I yield back.
    Chairman DAVIS. Thank you. The chair recognizes Mr. Reed 
for five minutes.
    Mr. REED. Thank you, Mr. Chairman. I am hearing kind of a 
consistent theme here from the panel and from testimony that is 
coming across. Essentially, what I am hearing is that we need 
less auditing, more streamline reporting requirements to the 
Federal level.
    But I would note that when I read the testimony I see some 
successes. I see 27 percent less kids in foster care, I see 20 
percent over the last 5 years kids in foster care. So, does it 
not beg the question--I would be interested in the panel's 
response to--we have to be doing something right. And that 
has--we heard Mr. Samuels's testimony as to previously the 
requirement on the states was to give us a plan, and now it is 
give us a plan and then give us an accounting of how you spent 
the money.
    So, my gut tells me that that change in philosophy of 
accountability, it seems to be--being implemented in this area. 
It seems to be working. So, is there any disagreement with that 
philosophy from anyone on the panel?
    [No response.]
    Mr. REED. Okay. So when we recommend less auditing, less 
accountability, if you would, from the states to the Federal 
Government, how do we maintain the successes by removing that 
accountability provision? Mr. Sciamanna?
    Mr. SCIAMANNA. I guess it is not less accountability, but 
refining it. I think the child family service reviews were an 
important act by Congress in 1994. And I think even some of the 
states will say--they may have problems with what the current 
process is, but it did engage a number of stakeholders. So I 
think the question is more about a refinement of that process, 
and what is the most efficient way to oversee the states.
    So, I think that is more of the debate, because certainly a 
number of advocacy groups and states will have different ideas, 
but we do need to have that oversight, because we should be 
doing a lot more for a lot of these families.
    Mr. REED. Okay. Mr. Yager?
    Mr. YAGER. And certainly we would agree with that. The 
accountability is important. That is not something that we want 
to shy away from. What we would suggest is that--is how they 
hold states accountable is what makes a difference.
    If they come in and do multiple reviews, looking at same 
sets of cases, requiring a lot of our staff to focus a lot of 
time, and then write independent corrective action plans for 
each of those reviews, versus looking at the state's own data 
system and encouraging a robust data system that can be relied 
upon to prevent them from coming in at multiple points, they 
could rely on our data, supplement that with some coordinated 
efforts on site, and then produce their reports----
    Mr. REED. Well, that is good to hear. So no one is really 
objecting to the accountability.
    Mr. YAGER. No, sir.
    Mr. REED. It is just a matter of getting the information 
streamlined.
    Mr. YAGER. Yes, sir.
    Mr. REED. And I am interested--and there is a lot of 
testimony in here--about prevention, preventative action. And 
that, in my gut, makes sense.
    I note the court improvement program, Ms. Hopper. You 
indicated that the court improvement program contributed to the 
success in Virginia. Can you tell me exactly concrete examples 
of what programs, what preventative measures you took to 
accomplish that?
    Ms. HOPPER. Well, the courts, of course, don't deliver 
programs. But they monitor the cases as they come in. And I 
think one of the critical components in the work that has been 
done in Virginia is the collaboration across all of the child 
serving agencies.
    One of the mantras in Virginia is that it is not just 
social services that is responsible for these children; they 
are the community's children. And you need to bring together 
the schools, mental health agency, the health department with 
Medicaid. All of those agencies need to be at the table in 
supporting local departments of social services who hold 
custody of children in foster care, and are held--frankly, all 
of them need to be held accountable for delivering whatever the 
support is that the child and the family need to get them out 
of foster care, or get them to some other permanent placement.
    So, to some degree, prevention occurs when you are able to 
engage all of those agencies right at the beginning of the 
entry of the family into care. And one of the things that the 
courts in Virginia have done--and I think is also a hallmark of 
other court improvement programs across the country--is that 
the court is sort of a disinterested party, has the ability to 
provide the leadership to pull them all together and say, 
``Yes, I may make the final decision, as the judge, but I need 
to know that you all are all at the table supporting the 
family, and ultimately the agency, if they have--if the court 
has to put the child in care in resolving these problems.''
    So, that kind of collaboration, which is supported by the 
child and family services review--but it has got to be more 
than a federally-directed effort. It has really got to be a 
locally-supported effort to be effective.
    Mr. REED. I know my time has expired. I appreciate the 
testimony, Ms. Wareing. And I did note in your testimony there 
was a study of the nurse initiative out of Elmira, New York, 
which is in my district. I will be reaching out to them to find 
out how that program is continuing to work. So I appreciate 
that.
    Thank you, Mr. Chairman, I yield back.
    Chairman DAVIS. Thank you. Mr. McDermott?
    Mr. MCDERMOTT. Thank you, Mr. Chairman. I received some 
information from a project in the State of Washington. So I 
want to put mine into the record. The Pierce County Alliance 
got a regional partnership grant from HHS to administer a 
promoting safe and family services programs like the one we are 
discussing this morning. It is called the Amphetamine Family 
Services Partnership. And it really is another example--and I 
think all of these, it would be nice if we could get them all--
and I ask unanimous consent to put in the record a letter from 
Dr. Terry Schmidt-Wayland along with the evaluation of the 
program in the State of Washington.
    Chairman DAVIS. Without objection.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman DAVIS. I think there are a number of very good 
practices that are out there, and the question is whether we 
have enough money to go further.
    I would say both to Mr. Reed and Ms. Black that the 
visiting nurse business was in the Accountable Care Act. Some 
of us put this in as a part of the whole of the revamp of the 
health care act.
    I would say also, Mr. Chairman, one thing that I wish we 
had up here--we have got these wonderful people who run these 
programs, but I think this audience is filled with people who 
have actually experienced it.
    I happen to know one of them sitting here was taken out of 
her home when she was 12 years old, when her mother was sent to 
prison, and her mother was sent to prison and 8 kids were taken 
into the system. They--when she came out of prison, she was 
deported, although she had a green card. She was deported, 
leaving eight kids here, in the United States. So this young 
woman went through six or seven homes, and then aged out, and 
managed to get herself through college at the University of--or 
Washington State University, and is an intern in my office.
    I would like to hear from you. those of you who are state 
directors, particularly. What are the problems of the 
interaction of the legal system of taking the parent away and 
locking them up, and leaving the kid in a set of foster homes?
    Because one of the issues that we had here on this sheet of 
paper which I sent around to everybody, which is how much money 
we are spending, you look down here, ``Mentoring children of 
prisoners.'' There is nothing.
    And I would like to hear from you what the problems are 
that you see in that particular genre of case, where you have 
taken the kid away and put the parent into prison. You said you 
had lots of it in Kentucky. Here is your opening.
    Ms. WILSON. Thank you. I think one of the greatest concerns 
we have is, particularly with young children, breaking that 
bond between a parent and a child, and how we facilitate trying 
to do visits between children with their parents, when parents 
are incarcerated. That is certainly something that we struggle 
with.
    The other issue, then too, is----
    Mr. MCDERMOTT. Is that because the distance to the state 
prison, or is it the reluctance of the foster parent to take 
the child, or----
    Ms. WILSON. It is a combination of factors. It is distance. 
It is just the sheer logistics of getting children their 
prescribed times for visits.
    One of the avenues that we have taken to try to work with 
this is we have an organization called Prevent Child Abuse 
Kentucky that actually goes into one or two of our Federal 
prisons and conducts classes with parents to prepare them for 
changes in their children. Because the other problem that we 
see is that when parents are released, their children are not 
the children they were when they left. And to help that parent 
be educated about effective parenting, but also about stages in 
development of children, so that when they are reunited they 
are better prepared to deal with the challenges before them 
that their children will bring.
    Mr. MCDERMOTT. What do you find in Virginia and Michigan?
    Ms. HOPPER. With regard to incarcerated parents and their 
children? I was just sitting here thinking one of--the only 
authority in Virginia in the district courts for bringing 
prisoner--we're talking district courts, where these cases are 
handled--for bringing prisoners to court, as opposed to circuit 
courts, is actually in the juvenile court with parents who are 
incarcerated, and are before the court in child dependency 
cases. And our legislature gave us that authority.
    And so, we actually encourage the courts to bring parents 
to court when they are having foster care review hearings or 
permanency planning hearings about their children.
    But the reality of it is, Congressman, that if you are 
going to take a child to a prison to visit their parents, the 
visitor situation is often not very good. It can be very 
stressful for a child. It can be tough to be in that kind of an 
environment. You need training for the people who take them, to 
help them make judgements about what happened to the child 
while they were there, and when they come back. And often these 
parents are there for a very long time.
    Chairman DAVIS. Thank you. The gentleman's time has 
expired. I would echo your sentiments, having been a prison 
volunteer for eight-and-a-half years in the Kentucky 
Corrections cabinet. That is a fairly traumatic experience for 
a child, especially if they have got some history that they are 
carrying in there.
    The chair recognizes Mr. Berg for 5 minutes.
    Mr. BERG. Thank you. One of the most difficult things, I 
think, in this whole process is the unintended consequences, 
where you sit around and you--it is probably no more evident 
than what you are dealing with, trying to figure out the best 
way to help these kids, and yet at the end of the day, the 
practicality of it, it sometimes has the opposite effect.
    And so, I just kind of wanted to expand on this. You know, 
I have--you know, the President has reduced the funding in half 
for this prison program. Is anyone familiar with--you know, I 
have heard it said that actually it is kind of detrimental to 
some of these children, because you are establishing a short-
term relationship, and then you are kind of pulling that away. 
Is there anyone on the panel familiar with that, and could 
explain that position, if you will?
    Mr. SCIAMANNA. I think--yes, what I read on one of the 
mentoring programs--at least the HHS justification--was that 
their evidence seemed to be that a lot of these mentoringships 
were ending within six months, and I think a significant 
percentage within three months. And the concern is that, when 
that happens, then you reinforce the sense of abandonment.
    So, I think it is--at least in one of the programs they 
talked about better focusing some of the funding. So I--you 
know, I don't' know. You would have to ask the department 
exactly the details in this program. But I think that is one of 
the concerns that sometimes exists in some of these efforts.
    Mr. BERG. And from my perspective, I just really believe 
that unless you measure things you can't manage them. And too 
often we are putting money and putting new programs, and they 
just continue on without anyone really saying, ``Hey, wait a 
minute,'' you know, ``that king doesn't have any clothes on,'' 
or, ``It's not working, and how can we''--which kind of bring 
up my other passion, and that is really people at the state 
level, you know, giving them the flexibility to know what works 
and what doesn't work, and allowing them to make those changes.
    And so, I guess, Ms. Wareing, we talked a little bit about, 
I guess what--I would like to ask you about the waivers, and 
you know, how you see that as a--I think you support that, but 
explain how you see that working. And we did pass a bill here 
at the end of May to encourage the waivers, and I was wondering 
if your organization was supportive of that, and maybe you can 
explain how that will help.
    Ms. WAREING. Sure. We are absolutely supportive of the 
expansion, essentially, of what had been the title IV-E 
waivers, as I think other folks have mentioned here, as my 
colleague at the end of the table, Mr. Yager, mentioned, the--
you know, the ability to use the IV-E dollars in a way that is 
beyond the just bringing kids into foster care. It is really 
the idea of what child welfare finance reform, in a more 
comprehensive way, is driving at.
    It allows states to meet the goals we have said they need 
to meet, and be accountable to those goals, but fit it to what 
their community needs are, and communities are different, and 
states are different. And, you know, the ability to do that and 
take--in a very difficult fiscal time for all of us, be able to 
be flexible with those dollars and use them as smartly as 
possible, we fully support that.
    We also fully support examining child welfare finance as a 
whole. But a huge step would be to expand the ability of the 
waivers to reach many more states for an extended period of 
time.
    Mr. BERG. I will yield back. Thank you.
    Chairman DAVIS. I thank the gentleman. And now the chair 
recognizes Ms. Black from Tennessee.
    Mrs. BLACK. Thank you, Mr. Chair. And I want to follow up 
on the questioning that Congressman Berg just completed, and 
that is the sharing of the information, the good information, 
because you all have--those of you at the state level, you have 
very good stories about what has worked in your state. And 
certainly that is something that should be shared with others.
    At the same time, Ms. Wareing, I appreciate the fact that 
each community, each state, may be different in its own 
complexion, and why it is so important to give that flexibility 
and allow something to incubate at a state that may really be 
very successful.
    I would like to hear from each of you, whether you are at 
the state level or an organizational level, how that 
information that may be a good piece from some place else that 
is doing a good job--how do you get that information? How is 
that shared?
    And we will start with you, Ms. Wilson. I mean, I like a 
number of the things that are in your testimony, and I am going 
to be calling the people that I know back at our state, and 
talking to them a little bit about that. But how would you both 
share what you have done successfully, and then also hear what 
other people are doing?
    Ms. WILSON. Certainly. And I know some of the people in 
your state, and we would be happy to talk with them.
    We have two avenues, actually, of both receiving and giving 
information. One of those is, both through HHS, through ACF, 
and through organizations like APHSA, they are invaluable when 
we have the opportunity to share, either via conference calls, 
to share at conferences, make presentations about specific 
programs. And so, in return, we both provide that information 
and we get that information.
    I think all of us--a common theme that has been expressed 
this morning--I think if you were to look at each of the 50 
states individually, what you would find is that one of the 
things that the CFSRs did above all else was really push states 
to be succinct in their data collection, to target that data, 
and then to use that data. And I think that is the key, is 
using the data to inform the practices.
    So, we look to our national organizations to help us get 
the word out. We look to those organizations also to make 
states aware of practices, promising practices, as well as we 
do ACF, and to share that information among the states.
    Mrs. BLACK. Thank you. Ms. Hopper.
    Ms. HOPPER. The court improvement programs, of course, are 
significantly focused on court processes and relationships with 
communities.
    And the National Council of Juvenile and Family Court 
Judges, through their permanency planning for children 
department, is a terrific resource for us. And they cultivate 
judges across the country with particular expertise--many of 
them come from your states--that are available to us to use in 
our states to call on as resources.
    The National Center for State Courts is also a terrific 
resource.
    And then, the national resource centers that are funded 
through HHS, the Center on Legal and Judicial Issues and the 
Child Protection Center are two that we are currently using on 
training on child safety.
    So, the national resource technical assistance that is 
available probably--I look at it a little bit differently than 
the executive branch does, but they help to pull together best 
practices, and people who are really on the cutting edge of 
these issues. And we rely on them heavily to know what is going 
on across the country.
    Mrs. BLACK. Do you think other states are relying on them, 
as well?
    Ms. HOPPER. Oh, yes, ma'am. I do believe they are.
    Mrs. BLACK. Okay. Great, great. Ms. Wareing?
    Ms. WAREING. I would just add--and Pat so eloquently talked 
about the way that the associations really play a role. But, 
you know, there is a lot of people in this room, many people, 
who come to work every day thinking about the ways in which we 
can better serve, have better, healthier lives for our children 
and families.
    And part of what I think has happened in recent years that 
is remarkable in a way that has allowed really good things to 
happen--and if we didn't say this, I think other people on the 
panel would agree--Promoting Safe and Stable Families, and 
including some of the things that happened in the last 
reauthorization were very helpful. So, you know, that, I think, 
is an important thing to leave the panel with.
    But there is a real shared governance and leadership that 
exists across national organizations, at all levels of state 
and local government. And those are the--the more we can make 
that a dynamic relationship, as opposed to a linear 
relationship, that is the way that things get shared.
    Mrs. BLACK. Thank you.
    Mr. SCIAMANNA. Yes. Actually, I hope American Humane 
Association is part of the solution. We do have a research 
department, based in our Denver office, and we either partner 
with states or localities, as they implement these practices. 
Or we do research around specific programs or practices, 
differential response.
    Something that actually the state of Tennessee is 
implementing, it is the way you design your child protective 
services system. But there was extensive work, and it is 
ongoing work, in terms of the state of Minnesota and their 
progress, where they have had control groups findings on the 
results of differential response, how it has really helped 
families.
    So, in our case, what we have done is we have gone into 
states like Ohio and now New York, and we help them implement 
it on a county-by-county basis. But it is research-based, and 
it is similar to what we are also doing, in terms of the 
fatherhood outreach, through fathers with children in child 
welfare. There is a research component.
    Mr. YAGER. I would quickly add that the ACF hosts 
conferences, and those conferences are very available to us. 
They are often funded for us, and we are able to go and share 
information. But I would also add that there is child welfare 
list servs where we can get on in real time and talk with our 
colleagues across the country and share information back and 
forth about what works and what doesn't work.
    Mrs. BLACK. Thank you very much.
    Chairman DAVIS. I thank the gentlewoman, and I want to 
personally thank each of our witnesses who have come in today, 
taken the time to--some come from far away, knowing you have 
got a day job waiting for you that is accumulating demands 
while you are here with us.
    We look forward to working with you closely in the future. 
Any additional input that you would like to have, certainly we 
are very open to that and want to craft the most efficient and 
proactive reauthorization possible.
    And if Members have additional questions, they will submit 
them to you in writing. What we would ask is that you submit 
your answers also the committee, just so we can insert them in 
the official record, so everyone will have access.
    And thank you all again. And, with that, the committee 
stands adjourned.
    [Whereupon, at 11:12 a.m., the subcommittee was adjourned.]
    [Submissions for the Record follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
